<html>
<title> - COMBATING NUCLEAR PROLIFERATION: THE EFFECTIVENESS OF THE DEPARTMENT OF ENERGY'S INITIATIVES FOR PROLIFERATION PREVENTION (IPP) PROGRAM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                  COMBATING NUCLEAR PROLIFERATION: THE 
                  EFFECTIVENESS OF THE DEPARTMENT OF 
                ENERGY'S INITIATIVES FOR PROLIFERATION 
                        PREVENTION (IPP) PROGRAM

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 23, 2008

                               __________

                           Serial No. 110-82


      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov
                                    -----
                   U.S. GOVERNMENT PRINTING OFFICE
47-234 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001







                    COMMITTEE ON ENERGY AND COMMERCE

                  JOHN D. DINGELL, Michigan, Chairman

HENRY A. WAXMAN, California          JOE BARTON, Texas
EDWARD J. MARKEY, Massachusetts          Ranking Member
RICK BOUCHER, Virginia               RALPH M. HALL, Texas
EDOLPHUS TOWNS, New York             FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            BARBARA CUBIN, Wyoming
BART STUPAK, Michigan                JOHN SHIMKUS, Illinois
ELIOT L. ENGEL, New York             HEATHER WILSON, New Mexico
ALBERT R. WYNN, Maryland             JOHN B. SHADEGG, Arizona
GENE GREEN, Texas                    CHARLES W. ``CHIP'' PICKERING, 
DIANA DeGETTE, Colorado              Mississippi
    Vice Chairman                    VITO FOSSELLA, New York
LOIS CAPPS, California               STEVE BUYER, Indiana
MICHAEL F. DOYLE, Pennsylvania       GEORGE RADANOVICH, California
JANE HARMAN, California              JOSEPH R. PITTS, Pennsylvania
TOM ALLEN, Maine                     MARY BONO, California
JAN SCHAKOWSKY, Illinois             GREG WALDEN, Oregon
HILDA L. SOLIS, California           LEE TERRY, Nebraska
CHARLES A. GONZALEZ, Texas           MIKE FERGUSON, New Jersey
JAY INSLEE, Washington               MIKE ROGERS, Michigan
TAMMY BALDWIN, Wisconsin             SUE WILKINS MYRICK, North Carolina
MIKE ROSS, Arkansas                  JOHN SULLIVAN, Oklahoma
DARLENE HOOLEY, Oregon               TIM MURPHY, Pennsylvania
ANTHONY D. WEINER, New York          MICHAEL C. BURGESS, Texas
JIM MATHESON, Utah                   MARSHA BLACKBURN, Tennessee
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana

                                 ______

                           Professional Staff

                 Dennis B. Fitzgibbons, Chief of Staff
                   Gregg A. Rothschild, Chief Counsel
                      Sharon E. Davis, Chief Clerk
               David L. Cavicke, Minority Staff Director7
              Subcommittee on Oversight and Investigations

                    BART STUPAK, Michigan, Chairman
DIANA DeGETTE, Colorado              ED WHITFIELD, Kentucky
CHARLIE MELANCON, Louisiana              Ranking Member
    Vice Chairman                    GREG WALDEN, Oregon
HENRY A. WAXMAN, California          MIKE FERGUSON, New Jersey
GENE GREEN, Texas                    TIM MURPHY, Pennsylvania
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             MARSHA BLACKBURN, Tennessee
JAY INSLEE, Washington               JOE BARTON, Texas (ex officio)
JOHN D. DINGELL, Michigan (ex 
    officio)

                                  (ii)


                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Bennie Thompson, a Representative in Congress from the State 
  of Mississippi, prepared statement.............................     2
Hon. Bart Stupak, a Representative in Congress from the State of 
  Michigan, opening statement....................................     4
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     5
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, opening statement.................................     7
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, prepared statement.............................     8
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, prepared statement......................................     9
Hon. Jan Schakowsky, a Representative in Congress from the State 
  of Illinois, prepared statement................................    10

                               Witnesses

Richard Robinson, Managing Director, Natural Resources and the 
  Environment, Government Accountability Office..................    11
    Prepared statement...........................................    14
    Answers to submitted questions...............................   259
Adam Scheinman, Assistant Deputy Administrator, Office of 
  Nonproliferation and International Security, National Nuclear 
  Security Administration........................................    31
    Prepared statement...........................................    33
    Answers to submitted questions...............................   261
Richard Stratford, Acting Deputy Assistant Secretary, Bureau of 
  International Security and Nonproliferation....................    35
    Prepared statement...........................................    37
    Answers to submitted questions...............................   298

                           Submitted Material

GIPP Status Report, March 25, 2008...............................    57
Subcommittee exhibit binder......................................    58

 
COMBATING NUCLEAR PROLIFERATION: THE EFFECTIVENESS OF THE DEPARTMENT OF 
    ENERGY'S INITIATIVES FOR PROLIFERATION PREVENTION (IPP) PROGRAM

                              ----------                              


                      WEDNESDAY, JANUARY 23, 2008

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. Bart 
Stupak (chairman) presiding.
    Members present: Representatives Stupak, Green, Schakowsky, 
Inslee, Dingell (ex officio), Shimkus, Walden, Burgess, and 
Blackburn.
    Staff present: Richard Miller, John Arlington, Scott 
Schloegel, John Sopko, Kyle Chapman, Dwight Cates, and Alan 
Slobodin.
    Mr. Stupak. This meeting will come to order.
    Today we have a hearing entitled ``Combating Nuclear 
Proliferation: The Effectiveness of the Department of Energy's 
Initiatives for Proliferation Prevention Program.'' Before I 
begin I would like to make two quick comments, if I may. First, 
I want to welcome my good friend John Shimkus as the new 
ranking member of the subcommittee. You inherit a very good 
staff on the subcommittee and we have a distinguished history 
of working together in a bipartisan manner and I know it will 
continue with you. I look forward to continuing that 
relationship and working with you in your new role as ranking 
member.
    Second, I would like to take a moment to acknowledge the 
work of Chairman Bennie Thompson of the Homeland Security 
Committee. The GAO report that is the focus of today's hearing 
was produced for the Homeland Security Committee, and we 
appreciate the work on this important issue. I would also like 
to ask unanimous consent to enter into the record a statement 
from Chairman Thompson regarding the GAO report and the IPP 
program. Without objection, the statement will be entered in 
the record.
    [The prepared statement of Mr. Thompson follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
  OPENING STATEMENT OF HON. BART STUPAK, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Stupak. Each member will now be recognized for an 
opening statement, and I will begin.
    Protecting the United States from a nuclear attack is one 
of our top priorities. Last year this subcommittee examined our 
ability to detect radioactive material being smuggled across 
our borders. Today's hearing will examine efforts to prevent 
proliferation of weapons of mass destruction. Our subcommittee 
intends to hold additional hearings this year to explore 
whether our government is doing enough to control, interdict 
and secure loose nukes and other weapons of mass destruction 
throughout the world.
    There have been several recent examples of nuclear material 
and knowledge falling into the hands of dangerous individuals. 
In 2007, enriched uranium was interdicted in eastern Slovakia 
and Hungary. In 2006, stolen highly enriched uranium was seized 
in the former Soviet republic of Georgia. Last year North Korea 
exploded its first nuclear device in their continuing quest to 
develop nuclear bombs. Where did North Korea obtain their 
nuclear expertise? From the rogue metallurgists behind 
Pakistan's nuclear weapons program, Dr. A.K. Khan. Dr. Khan not 
only sold nuclear technology to North Korea but also to Libya, 
Iran and a fourth recipient whose identify has not yet been 
disclosed. Unfortunately, even though the United States 
provides Pakistan with more than $1 billion per year in aid, 
the Administration has apparently been unable to interview Dr. 
Khan to unlock all the secrets about his proliferation 
activities, information that could prevent the spread of 
nuclear weapons to other nations or terrorists.
    At the end of the Cold War, it was estimated that the 
Soviets employed 50,000 to 60,000 nuclear experts, 65,000 
bioweapons professionals and 6,000 chemical weapons experts. 
After the collapse of the Soviet Union in 1991, many of its 
weapon scientists and engineers suffered significant cuts in 
pay or lost their government-supported work. In response to the 
national security threat that unemployed or underemployed 
scientists would sell their knowledge to terrorist groups or 
countries of concern, the United States Department of Energy 
established the Initiative for Proliferation Program, IPP, in 
1994. The IPP was developed as a means to engage in transit 
weapons of mass destruction scientists into peaceful commercial 
activities. The State Department operates a parallel program by 
helping former WMD institutes retain Soviet-era scientists in 
new missions using two science centers, one in Russia and one 
in the Ukraine. Nine years ago the Government Accountability 
Office (GAO) studied the effectiveness of the IPP program and 
issued a report that was critical of the program. A February 
1999 report found that 63 percent of the money was spent in the 
United States, more than half the money going to DOE national 
labs. Only 37 percent of IPP funding went to Russia's 
scientific institutes. Overhead, taxes and fees further reduce 
the amounts actually received by Russian scientists.
    In response, Congress modified the program capping the 
spending at the national laboratories to 35 percent and 
required the Energy Secretary to review projects for commercial 
potential and terminate those which ``are not likely to achieve 
their intended commercial objective.'' Today we will hear the 
results of a new 15-month GAO follow-up audit. It appears it is 
even more critical than their 1999 review. For example, GAO 
found that 54 percent of those hired on IPP projects it audited 
did not claim experience with weapons of mass destruction, the 
key goal of the IPP program. GAO also found that despite the 
fact that the State Department has graduated 17 institutes from 
their proliferation program because they determined that these 
institutes were self-sustaining, the DOE has continued to front 
35 projects in Russia and the Ukraine at those 17 institutes. 
The GAO investigation questioned whether the IPP program may 
actually be contributing to the proliferation of weapons of 
mass destruction since its funds have been used to recruit and 
retain new scientists who are too young to have worked on 
Soviet-era weapons of mass destruction programs. At the same 
time, GAO also noted that some of the former weapons institutes 
being assisted by IPP are enjoying newfound prosperity. One has 
a marble-lined foyer with an art collection thanks to a gift 
from a former scientist. This begs the question of whether the 
institutes need U.S. funding to sustain employment for their 
scientists.
    There are a number of additional questions that I look 
forward to having answered today about the continued need for 
the Initiatives for Proliferation Prevention program, whether 
there is a system in place to adequately evaluate the 
effectiveness of the IPP programs, whether the Russians should 
assume funding responsibility for the program and whether DOE 
can evaluate the proliferation threat risk associated with 
ending funding for IPP. The DOE needs to evaluate whether the 
money spent through the IPP program would be better spent in 
other parts of the world where local economies are not doing as 
well as in Russia and there may be a greater risk or temptation 
for scientists to sell their knowledge to terrorists or 
countries of concern.
    Let me make this point clear. Cooperative threat reduction 
programs run by the Department of State and the DOE are 
valuable. The Initiatives for Proliferation Prevention program 
in particular has given former Soviet scientists a reason not 
to sell their knowledge to state or terrorist actors who want 
to develop a nuclear device. While the non-proliferation 
mission is important, it is imperative that we as Members of 
Congress assess DOE's past performance and future strategy to 
determine whether the projects funded by the IPP program are 
continuing to provide the intended non-proliferation benefits.
    That concludes my statement.
    Mr. Stupak. I would like to now turn to my friend, Mr. 
Shimkus, for his opening statement, please.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Thank you, Mr. Chairman. It is great to be 
with you and your very great staff and I look forward to 
working with you. I also want to recognize Chairman Thompson 
for asking for this report. It has been very valuable and I 
think it helps lead our discussions.
    Today's hearing will focus on a report by the GAO that has 
identified several serious problems with the DOE's Initiatives 
for Proliferation Prevention, or IPP, program. GAO's findings 
raise serious doubts about the overall benefits of this non-
proliferation program. GAO will testify that DOE has overstated 
the accomplishments of the Initiatives for Proliferation 
Prevention program and has failed to develop any meaningful 
criteria or performance measures to explain whether the 
Initiatives for Proliferation Prevention program is working.
    We know DOE has funded thousands of Russian scientists but 
DOE has failed to demonstrate that this effort has led to any 
meaningful reduction in the non-proliferation threat posed by 
the former Soviet weapons scientists and what we are addressing 
today is the old trust but verify and let us see the results of 
the money that we are spending.
    Furthermore, GAO has informed us that DOE has even funded 
scientists at Russian institutes who pose no proliferation 
threat or risk and who have no technical background in weapons 
of mass destruction. More importantly, DOE has overlooked 
several critical opportunities to reduce proliferation risk. 
For instance, the State Department has provided us with a list 
of 18 critical high-risk Russian institutes where brain drain 
is a threat. The committee Minority staff compared the State 
Department's high-priority list with a list of Russian 
institutes DOE is currently funding. Only three of the 18 
highest priority Russian institutes identified by the State 
Department are currently funded through DOE's IPP program. 
GAO's report shows that DOE has not focused its resources on 
the highest risk institutes in Russian. Only last year, 13 
years since the Initiatives for Proliferation Prevention 
program was created, did DOE finally begin to develop a risk 
prioritization system for targeting scientists at the Russian 
institutes. GAO will also testify that there is poor 
coordination between DOE and similar non-proliferation programs 
at the Department of State, Department of Agriculture, and I 
guess there are also programs with the Department of Defense 
and Health and Human Services. With such an apparent 
duplication of effort and failure to coordinate, we should 
examine whether these programs could or should be consolidated. 
Congress appropriated $30 million for the Initiatives for 
Proliferation Prevention program in 2008 in the Omnibus Bill, 
and of course, there is no specific line item but the original 
budget request was around $21 to $22 million. There is an 
overall increase. We have questions on how we are spending the 
money to begin with. The question is, why increase portions of 
that?
    Who is the Initiatives for Proliferation Prevention program 
intended to benefit and why isn't Russia participating? Does 
Russia share the same concerns about the threat of terrorism 
and non-proliferation concerns? If they do, then it is time for 
them to contribute some money to help solve the non-
proliferation threat. Where is the United States' return on 
investment? In coordination with the Energy Information 
Administration Committee, Minority staff has calculated that 
over just the past 3 years the United States has imported 150 
million barrels of oil from Russia at a total of $8.68 billion 
and we have imported 49 billion barrels of fuel oil at a total 
price of $2.35 billion. This $11 billion in wealth transferred 
from the United States to Russia is enormous and it is one of 
the reasons Russia is running a budget surplus. Clearly Russia 
can afford to participate in the IPP program. In light of 
Russia's growing wealth, I think it is clear the Russian 
government could step up to the plate and help address the 
proliferation threat posed by its own scientists.
    If we decide to continue the Initiatives for Proliferation 
Prevention program into the future, DOE must first demonstrate 
that it has corrected serious management problems identified by 
GAO. If DOE demonstrates that the program is salvageable, the 
second step would be to get a cost-share commitment from the 
Russian government before we initiate any new Initiatives for 
Proliferation Prevention program projects at Russian 
institutes.
    Thank you, Mr. Chairman.
    Mr. Stupak. I thank the ranking member for his statement.
    I next turn to the chairman of the full committee, Mr. 
Dingell, for an opening statement. I am going to ask Ms. 
Schakowsky to take the chair as I have to testify at another 
hearing, and I will be back as soon as I get done. Mr. Dingell 
for an opening statement, please, sir.

OPENING STATEMENT OF HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Dingell. Thank you, Mr. Chairman. I appreciate your 
courtesy and I commend you for holding this hearing on nuclear 
proliferation. This is a very important subject and it is an 
issue of grave importance, given the continuing political 
instability in central Asia.
    I want to observe first of all that I watched this program 
as its inception when I visited Russia and the Soviet Union at 
the time of the collapse of the then-Soviet Union. At that time 
it was a good program and it seemed to be focused and that it 
also seemed to have purpose and a sense of administrative 
solidarity. It has been regrettably virtually unreviewed and 
un-looked at by the Congress for a number of years and it is 
time that it be looked at very carefully to see to it that it 
has carried out its original purpose and whether in fact the 
program is doing what it should, given the way the world works 
today.
    The Initiatives for Proliferation Prevention program, IPP, 
had at its inception a noble purpose. It must be noted that the 
central goal of this program was to provide proper incentives 
to the scientists who would be helped by it so that they would 
direct their expertise in peaceful ventures in partnership with 
private U.S. companies rather than to work for rogue states or 
terrorist groups, a matter of great importance then and of 
great importance now. This is certainly an innovative and 
useful approach today as it was then, and it was useful in 
preventing the spread of nuclear technologies then and now.
    Since that time, however, the landscape has changed 
dramatically. Russia is now thriving. It is the largest oil 
producer in the world. It is the second largest oil exporter 
after OPEC. Its economy is booming. Unemployment is declining 
rapidly there. In short, given Russia's economic turnaround, it 
appears that the time has come for the IPP program to show 
Congress how it works, how it is justified, what it is doing 
and whether or not it has an exit strategy that would be useful 
in terms of our other policy questions and its own concerns. 
Moreover, there is a serious question as to how effective the 
program has been. The Government Accountability Office (GAO) 
notes that an audit sample found that more than half of the 
scientists funded by the IPP program may not have had any 
weapons-related experience. In addition, the Department of 
Energy's assertions that the program has created thousands of 
long-term private-sector jobs for former scientists cannot be 
objectively verified. This underscores the basic question of 
whether the IPP program is funding the right people and perhaps 
whether it can be made to work at all. It is also curious to 
observe that it just might be that this is a program which is 
funding competition for our own industry using our taxpayers' 
monies.
    I must voice my own skepticism about the efficacy of the 
IPP program. It is hard to imagine that today's Russian leaders 
would allow our Energy Department to employ their top weapons 
scientists. Indeed, DOE's senior officials informed the 
committee staff that the Russians would never let us anywhere 
near anyone they really care about. The deputy director of the 
IPP program concurred in that assessment.
    Mr. Chairman, I begin by noting that the program was born, 
as I have said, with a noble purpose and I have no doubt that 
those who run this program do so with the best of intentions. 
There is, however, often a thin line between the noble and the 
nave. Finally, while today's hearing is focused on nuclear 
proliferation, I note that the IPP program and parallel 
Department of State programs are not limited to scientists who 
worked only on nuclear weapons but may also include scientists 
working with chemical and biological weapons. The Subcommittee 
on Oversight and Investigation has already initiated 
investigation into the proliferation of high-containment 
bioresearch laboratories with the first in a series of hearings 
on that subject held in October and more to come in this year. 
I would be interested to learn the extent to which DOE and the 
State Department may be involved in the funding of former 
biowarfare scientists or the construction of bioresearch 
laboratories in developing countries.
    Mr. Chairman, you are doing great work and I look forward 
to exploring these issues further in this and in other hearings 
to come. Thank you for your recognition.
    Ms. Schakowsky [Presiding]. Thank you, Mr. Dingell.
    The Chair now recognizes Mr. Walden for an opening 
statement.
    Mr. Walden. Thank you, Madam Chairman. I waive my opening 
statement given that we have got votes coming up within the 
hour, and I look forward to hearing from our witnesses.
    Ms. Schakowsky. Mr. Burgess--Dr. Burgess. Excuse me.
    Mr. Burgess. Again, in the interests of time, because we do 
have votes coming up, I will submit my statement for the record 
and wait on the witnesses, and yield back.
    [The prepared statement of Mr. Burgess follows:]

                Statement of Hon. Michael C. Burgess, MD

    Thank you Chairman Stupak. Before I begin my brief remarks 
I would like to extend a warm welcome to our new Ranking 
Member, John Shimkus. I believe that this is one of the most 
important subcommittees in Congress, and I look forward to 
working with you on the many important issues that comes before 
the Oversight and Investigation Subcommittee.
    Throughout our nation's rich history, we have faced many 
threats to our national security, whether it was in the 1700's 
from England, the 1800s from the Civil War, the 1900's from the 
Soviet Union, or in present day, from Al Qaeda. We have endured 
times of war and proactively sought measures to prolong times 
of peace. However, as the times and enemies change, so must our 
strategy.
    It is the duty of Congress, of this subcommittee, to 
reevaluate and reassess government programs, especially those 
programs of national security interest. What works, what 
doesn't? What is the best use of the taxpayer's dollar? Today, 
we will be discussing the Initiative for Proliferation 
Prevention Program. The program's intent, created in 1994, was 
to reduce the proliferation risk posed by weapon scientists in 
the former Soviet Union. Was this intent fulfilled? Is this 
program still effective? I welcome our witnesses from National 
Nuclear Security Administration, the State Department, and the 
Government Accountability Office to address these vital 
questions; and therefore, help to better secure the safety of 
our nation.
    Again, Mr. Chairman, I thank you for this important 
hearing, and I yield back the balance of my time.
                              ----------                              


    Ms. Schakowsky. Mr. Green?
    Mr. Green. Madam Chair, I have a statement I would like to 
ask be placed into the record and just note, this is the second 
time in a decade that we have received a report critical of the 
IPP program and I appreciate the Chair having this hearing 
today and the oversight, and I will yield back my time.
    [The prepared statement of Mr. Green follows:]

                      Statement of Hon. Gene Green

    Mr. Chairman, thank you for holding today's hearing on 
"Combating Nuclear Proliferation: The Effectiveness of the 
Energy Department's Initiatives for Proliferation Prevention 
Program."
    Following the end of the Cold War, many believed the threat 
of attack from the Soviet Union's nuclear arsenal was over.
    Little did we know then that these same nuclear weapons 
would pose as severe a threat today as they did at the height 
of the Soviet Union's power.
    We no longer face brinkmanship with another world 
superpower, but 9/11 proved just how dangerous weapons can be 
in the hands of those who despise our nation's way of life.
    Terrorist organizations have declared war against the 
United States. In this battle, we must assume that no weapon is 
out of reach, too expensive, or too destructive for our enemies 
to use against us.
    Rouge nations, such as North Korea and Iran, have also 
shown that they will act against the will of the international 
community to develop dangerous weapon capabilities.
    Our efforts to keep nuclear, biological and chemical 
weapons out of the hands of terrorist organizations or rogue 
nations have broadened greatly since the passing of the Nunn-
Lugar Cooperative Threat Reduction Act in 1991.
    Today Congress spends over $1 billion across three agencies 
- the Department of Energy, Defense, and State - for our 
nonproliferation efforts.
    One such DOE program, the Initiatives for Proliferation 
Program, or the IPP program, was created to reduce the threat 
that scientists with expertise of weapons of mass destruction 
might provide that expertise to states or terrorists to 
threaten the U.S. or our allies.
    It aims to achieve this by focusing on the twin goals of 
creating nonmilitary work and long-term job creation for 
weapons scientists in Russia and other former Soviet Union 
countries.
    I hope today's hearing will shed some light on whether or 
not these goals are being achieved.
    For the second time in a decade, the Government 
Accountability Office has issued a critical report on the IPP 
program and has provided recommendations for improvement.
    Questions continue to loom regarding the program's lack of 
clear performance metrics and accurate reporting methods.
    Congress has stepped in before to remedy deficiencies in 
the IPP program, and should do so again if the program fails to 
achieve U.S. nonproliferation and national security objectives.
    I welcome our distinguished panel before us today, and I 
look forward to a lively discussion.
    I yield back the balance of my time.
                              ----------                              


    Ms. Schakowsky. Ms. Blackburn?
    Ms. Blackburn. Thank you, Madam Chairman. I will yield back 
my time. I will place my statement in the record so that we can 
move forward with our witnesses. I think we all have lots of 
questions.
    Ms. Schakowsky. Let me just say a few words and I will put 
my statement in the record.
    Nearly 14 years have passed since the IPP program began and 
I am just very proud that this committee under the leadership 
of Chairman Stupak is looking into this, and this is exactly 
what the Oversight Subcommittee ought to be doing, looking at 
programs of all sorts, but I think maybe in particular those 
that are kind of obscure and yet lots of taxpayer dollars are 
going their way to evaluate those, so this is indeed a very 
important hearing.
    My task at this point is to swear in our witnesses, so if 
they would--the witnesses are Mr. Robert Robinson, Managing 
Director of Natural Resources and the Environment of the GAO; 
Mr. Robinson is accompanied by Mr. Glen Levis, Assistant 
Director of Natural Resources and the Environment; Mr. Adam 
Scheinman, Assistant Deputy Administrator, Office of 
Nonproliferation and International Security at the Department 
of Energy's National Nuclear Security Administration; and Mr. 
Richard Stratford, Principal Deputy Assistant Secretary, Bureau 
of International Security and Nonproliferation at the 
Department of State. I want to welcome the panelists, and it is 
the policy of this subcommittee to take all testimony under 
oath, so please be advised that witnesses have the right under 
the rules of the House to be advised by counsel during their 
testimony. Do any of you wish to be represented by counsel? 
Then if you would, please rise and raise your right hand to 
take the oath.
    [Witnesses sworn.]
    Ms. Schakowsky. Let the record reflect that the witnesses 
replied in the affirmative, and you are now under oath.
    Ms. Schakowsky. And now we will begin first with Mr. 
Robinson.[The prepared statement of Ms. Schakowsky follows:]

                    Statement of Hon. Jan Schakowsky

    Thank you Mr. Chairman for yielding and for holding this 
hearing on such an important issue.
    At the time of the collapse of the Soviet Union, it is 
believed that the Soviets employed between 120,000 and 130,000 
experts on nuclear and other weapons of mass destruction. With 
the Kremlin disbanded there was real fear that these suddenly 
unemployed scientists would sell their skills to the highest 
bidder. This fact presented a clear threat to the United States 
and the rest of the world. To prevent this from happening, the 
Congress created several programs, including the Initiatives 
for Proliferation Prevention (IPP) intended to identify and 
procure employment for these experts in civilian research.
    Nearly 14 years have passed since the IPP program began and 
yet today marks the very first time that Congress has conducted 
an oversight hearing on its effectiveness. Like many of my 
colleagues, I think that it was prudent for our government to 
have been active in ensuring that these brilliant minds did not 
end up working for rogue nations like North Korea or Iran, or 
terrorist organizations. I also believe that it was not the 
intention of Congress to create an endless source of financing 
for this program, but rather to provide immediate assistance to 
help these scientists find employment, after which the United 
States would gradually remove itself from the process. Despite 
this, evidence presented today by the Government Accountability 
Office suggests that in fact, the Department of Energy has "not 
developed an exit strategy for the IPP program."
    I look forward to hearing from our panelists today so that 
we may learn more about the IPP program including whether it 
has been effective to date and lastly whether the program 
remains necessary in light of the rapidly improving economy in 
Russia.
    I am particularly interested in hearing Mr. Scheinman's 
reactions to several findings in the GAO report including the 
fact that 54 percent of the scientists paid through the program 
claim to have no experience with weapons of mass destruction 
and 60 percent of those audited had not been soviet era 
scientists.
    These facts seem to indicate that the IPP program may no 
longer serve its intended purpose and may need to be either 
reformed or phased out.
    Again Mr. Chairman, I want to thank you for holding this 
hearing and I look forward to hearing from each of our 
panelists and I yield back the balance of my time.
                              ----------                              


    Ms. Schakowsky. And now we will begin first with Mr. 
Robinson.

   STATEMENT OF RICHARD ROBINSON, MANAGING DIRECTOR, NATURAL 
RESOURCES AND THE ENVIRONMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Robinson. Thank you very much. We are happy to be here 
today. I would want to put into the record that I am pinch-
hitting today for Gene Aloise, who was responsible for and 
conducted this work under his leadership. He is unfortunately 
undergoing medical treatment and is not able to be here today.
    There are many details that emerge from our analysis of 
this program, Mr. Chairman, and I want to use my 5 minutes to 
lay out a few commonsense observations about the program that 
led us to our conclusion that the program needs to be 
fundamentally reassessed. I am focusing my remarks here because 
while DOE largely agreed with our recommendations, it disagreed 
with us on this issue. At the outset I want to say and mirror 
the comments that many of you have made that there is no doubt 
that the program has served a very useful purpose in helping us 
get through a dangerous period of high proliferation risk 
coinciding with the dissolution of the former Soviet Union. The 
program helped former Soviet-era weapons scientists through a 
period when they had either lost their jobs or suffered 
significant cuts in pay that could have led them to sell their 
knowledge to other countries or terrorist groups trying to 
develop weapons of mass destruction. Now, however, 14 years and 
$300 million later, the circumstances that led to the program's 
creation have dramatically changed, most notably, greatly 
improved economic conditions, particularly in Russia where 80 
percent of the program's projects have been directed. With $100 
barrel oil feeding the thriving Russian economy, the threat 
that former weapons scientists will need to sell their 
knowledge outside their country appears to be significantly 
lessened. These economic conditions also raise questions about 
whether the Russian government could take on greater 
responsibility in this area. There are probably pockets of 
vulnerably at certain weapons institutes but these could be 
identified during the reassessment we called for. Our 
discussions at numerous institutes across Russia and Ukraine 
and with a senior Russian atomic energy agency official confirm 
the view that the program may no longer be relevant to today's 
realities. Many officials told us, in fact, that their bigger 
fear is that the scientists will emigrate to the United States 
and Western Europe and not to countries of proliferation 
concern.
    Our analysis of the program's operations provide further 
support, we believe, for the need for fundamental program 
reassessment. Over half of the scientists being funded at the 
97 projects we reviewed did not claim any weapon-related 
experience in the documentation we reviewed. Instead of being 
used to support former Soviet-era weapons scientists, the 
authorized design of the program, funding is now being used to 
attract, recruit and retain younger scientists that were too 
young to have had this experience. In this way, we may actually 
be helping sustain the continued operation of institute 
activities or, at a minimum, help the institutes develop 
technical capabilities that we ultimately may have to compete 
against. Ultimately, and importantly, DOE has not updated its 
metrics to judge the extent to which the program is actually 
reducing proliferation risk, and this is where we want to make 
sure the energy is concentrated here today, or adjust 
priorities so that funds can be targeted to the areas of 
highest need.
    Just as troubling, there appears to be no exit strategy for 
the program. Unlike the Department of State, which has 
developed criteria specific in nature to graduate certain 
institutes from the program, DOE has developed no comparable 
strategies. As a result, DOE continues to support multiple 
projects that State ceased funding because it concluded that 
they no longer used U.S. assistance. Likewise, DOE is now 
expanding the program to other countries and purposes. It is 
now providing assistance to scientists in Iraq and Libya. The 
program is also developing projects to support another DOE 
program, GNEP, aimed at expanding the use of nuclear power in 
the United States and around the world. These efforts could 
very well have a useful national security purpose but it is not 
consistent with the original intent of the program and has 
occurred without a clear mandate from Congress.
    To address these and other concerns, our report presented 
11 recommendations, 8 of which DOE concurred with. In 
particular, they agreed with our program management 
recommendations dealing with developing better processes for 
verifying WMD backgrounds of participating scientists, seeking 
congressional authorization to expand the program outside the 
former Soviet Union and working with the State Department to 
better coordinate its similar programs.
    As I said earlier, DOE disagreed with our recommendation to 
fundamentally reassess the program but based on the evidence 
presented in our report and summarized here today, I believe 
this recommendation is sound and, at a minimum, should include 
a thorough analysis of risk, a focused prioritization of 
program resources on the highest risks, and a clear exit 
strategy that includes specific criteria for graduating 
countries, institutes and scientists from the program.
    As the Comptroller General has said on many occasions, the 
Federal Government is on an unsustainable fiscal path, making 
it imperative that all Federal programs be efficiently focused 
on the highest priorities. There is no reason that this 
standard should not be applied to the IPP program.
    Thank you, and I look forward to the discussion that 
follows.
    [The prepared statement of Mr. Robinson follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Schakowsky. Mr. Scheinman.

 STATEMENT OF ADAM SCHEINMAN, ASSISTANT DEPUTY ADMINISTRATOR, 
OFFICE OF NONPROLIFERATION AND INTERNATIONAL SECURITY, NATIONAL 
                NUCLEAR SECURITY ADMINISTRATION

    Mr. Scheinman. Thank you, Chairwoman and Mr. Shimkus. Let 
me thank the committee for inviting me to testify today. I 
certainly welcome the opportunity to discuss the Global 
Initiatives for Proliferation Prevention program, which is one 
of a number of nonproliferation programs under the National 
Nuclear Security Administration and the Department of Energy. 
The GAO review of the GIPP program raises important questions 
and offers a list of recommendations. As noted, many of those 
we support, and I look forward to sharing our view of the 
program.
    The need to prevent weapons of mass destruction 
proliferation through engagement of weapons scientists, 
engineers and experts has been a consistent policy objective of 
the United States including successive U.S. administrations. It 
is a goal in the National Security Strategy issued in 2002 
which calls for ``strengthened efforts to prevent rogue states 
and terrorists from acquiring the materials, technologies and 
expertise needed for weapons of mass destruction.
    To advance that policy goal, GIPP uses technical expertise 
within the Department of Energy and the national labs to 
redirect former WMD personnel in other countries to peaceful, 
non-military work.
    GIPP engages directly with personnel in Russia and former 
Soviet states, many of whom are employed by institutes not yet 
fully enjoying the benefits of Russian economy turnaround. The 
program provides the United States with an established 
capability to respond quickly and flexibly to emerging risks 
and opportunities in the nonproliferation arena.
    Through GIPP, roughly 115 projects are underway in more 
than 100 institutes and facilities in Russia, Ukraine, 
Kazakhstan, Armenia, Georgia and Uzbekistan. Projects were 
launched more recently outside of the former Soviet Union 
including in Iraq and Libya, as has been noted. Taken together, 
the GIPP has engaged many thousands of WMD scientists and 
experts, which we view as an impressive achievement that serves 
our nonproliferation objects and our Nation's security.
    Most GIPP projects involve a U.S. industry partner. Through 
its industry outreach component, GIPP has facilitated 
partnerships that are commercializing technologies that are in 
use today including landmine detectors, needle-free injectors, 
prosthetics, radioisotopes for cancer treatment and so on. 
Russian scientists and U.S. industry benefit from these 
partnerships.
    At the State Department's request, GIPP responded to a 
nonproliferation imperative in Libya following Libya's decision 
to abandon its WMD programs, and we partnered with the State 
Department in Iraq. We are also prepared to engage elsewhere 
including North Korea if the circumstances warrant it.
    Notwithstanding our limited programs in Libya and Iraq, the 
bulk of GIPP work today remains in Russia. We recognize of 
course that in many respects Russia has changed in 15 years 
since scientist redirection got underway. Russia's economy is 
more stable and conditions in the closed cities are certainly 
improved. Accordingly, the threat of scientist migration is not 
one that gives us the greatest concern today.
    But the absence of high risk of scientist migration doesn't 
imply zero risk or that the job is done. And in our view, as 
long as proliferation demand exists, we have a requirement to 
cooperate with others to impede supply, whether that involves 
improved expert controls, better border security or scientist 
engagement. Absence of high migration risk does imply that the 
manner in which GIPP has been traditionally carried out merits 
recalibration, as noted in the GAO report, and this is the path 
that we are on, started at the request of the NNSA 
administrator in 2006.
    At the administrator's request, GIPP conducted an internal 
assessment much along the lines outlined by the GAO in its 
principal findings. Our conclusion in that assessment was that 
scientist engagement is contributing to nonproliferation goals 
and should continue but should be oriented to better meet the 
current threat. It should also contribute to technologies more 
supportive of the NNSA mission, whether that involves 
technology for nuclear safeguards, for nuclear security or 
proliferation-resistant nuclear energy systems. We certainly 
want to ensure that our partners have a strong security culture 
and that requires engagement of scientific personnel.
    The conclusion of our internal review was approved by the 
administrator and endorsed a number of specific outcomes which 
I will highlight here.
    First, in light of the changed threat environment, GIPP 
would adopt a more focused approach, emphasizing those 
institutes and facilities involved with enabling WMD 
technologies or expertise and where the program can provide a 
stabilizing influence.
    Second, recalibrate the program to advance core NNSA 
nonproliferation missions, which I outlined a moment ago. 
Russia will be one of our most important partners in the effort 
to ensure that the global expansion of nuclear power is carried 
out in ways that reduce proliferation risks, and that is why we 
thought it makes sense to focus on proliferation resistance of 
the fuel cycle. Russia is a leading supplier and user and has 
nuclear energy expertise and facilities that rival ours in the 
United States, so we have an interest in continuing our 
engagement with Russia to ensure that a fuel cycle that evolves 
is one that is safer and more secure than the current 
generation. GIPP is one vehicle that can help that process.
    Third, in response to changing requirements and program 
improvements, GIPP has reduced budget and uncosted balances. 
Our annual appropriation peaked in 2002 when the program was 
funded at $57 million and is today at roughly $30 million. In 
addition, budget allocations to projects in Russia have been 
reduced.
    Fourth, the program opted to cancel its Nuclear Cities 
Initiative.
    Ms. Schakowsky. Mr. Scheinman, just to note, you are a 
minute over now, so if you could wrap up?
    Mr. Scheinman. I will wrap up. We have canceled programs. 
We have considered transitioning our activity from assistance 
to partnership as noted in the opening statements, and 
consistent with GAO recommendations, we plan to update program 
guidance, produce a strategic plan and enact a number of other 
improvements that I will be happy to deal with in the question-
and-answer period.
    Thank you for your attention, and I look forward to the 
questions.
    [The prepared statement of Adam Scheinman follows:]

                     Testimony of Adam M. Scheinman

                                Summary

    The Global Initiatives for Proliferation Prevention (GIPP) 
is a nonproliferation program of the National Nuclear Security 
Administration (NNSA). Its purpose is to advance U.S. policy 
objectives by impeding access by proliferators to weapons of 
mass destruction (WMD) expertise. The program was established 
in 1994 to address the risk of Russian and Soviet scientist 
migration, and has evolved to address risks in other countries.
    Given improved economic conditions in Russia, and at the 
request of the NNSA Administrator, NNSA examined and reassessed 
GIPP in 2006. The assessment concluded that the program should 
continue, but should be oriented to address the current threat 
environment and the NNSA nonproliferation and nuclear security 
mission. The Administrator also endorsed programmatic and 
management changes to strengthen the GIPP program. Specific 
improvements include:
    Prioritizing engagement with Russian/Former Soviet Union 
(FSU) institutes and facilities involved with enabling WMD 
technologies;
    Recalibrating the program to advance NNSA nonproliferation 
and national security objectives, including technology projects 
that promote international safeguards, nuclear materials 
security, and proliferation resistance of the nuclear fuel 
cycle;
    Reducing budget and uncosted balances;
    Cancelling the Nuclear Cities Initiative;
    Promoting the goal of project cost-sharing with partners; 
and
    Continuing engagement with new partners (i.e., Libya and 
Iraq).
    As noted in the response letter to the GAO, NNSA agrees 
with many of the report's conclusions. While we note concerns, 
the program plans to implement many of the recommendations, or 
is already implementing similar reforms, to ensure a more 
effective program. NNSA will implement these recommendations 
with the understanding that scientist redirection activities 
are important to the achievement of U.S. nonproliferation 
goals.

                               Testimony

    Thank you Chairman Stupak and Mr. Shimkus, and allow me to 
thank the Committee for inviting me to testify today. I welcome 
the opportunity to discuss the Global Initiatives for 
Proliferation Prevention (GIPP) program, one of a number of 
nonproliferation programs managed within the Department of 
Energy's National Nuclear Security Administration (NNSA).
    The GAO review of the GIPP program raises important 
questions and offers a list of recommendations, many of which 
we support. I look forward to sharing our view of the GIPP 
program, especially in relation to the recently released GAO 
report in the course of my statement, which I submit for the 
record.
    The need to prevent weapons of mass destruction (WMD) 
proliferation through engagement of weapons scientists, 
engineers and experts has been a consistent policy objective of 
successive U.S. administrations. The Department of Energy's 
program in this area was established in 1994, and it is 
identified as a goal in the President's National Security 
Strategy and National Strategy to Combat Weapons of Mass 
Destruction, both issued in 2002. The National Security 
Strategy calls for "strengthened nonproliferation efforts to 
prevent rogue states and terrorists from acquiring the 
materials, technologies, and expertise necessary for weapons of 
mass destruction."
    To advance this policy goal, GIPP uses the technical 
expertise within the Department of Energy and the national labs 
to redirect former WMD personnel in other countries to 
peaceful, non-military work.
    GIPP engages directly with personnel in Russia and former 
Soviet states, many of whom are employed by institutes not yet 
fully enjoying the benefits of the Russian economic turnaround. 
The program also provides the United States with an established 
capability to respond quickly and flexibly to emerging risks 
and nonproliferation opportunities in additional countries.
    Through GIPP, roughly 115 projects are underway at more 
than 100 institutes and facilities in Russia, Ukraine, 
Kazakhstan, Armenia, Georgia, and Uzbekistan. Projects were 
launched more recently outside of the former Soviet Union, 
including in Iraq and Libya. Taken together, the GIPP has 
engaged many thousands of WMD scientists and experts - an 
impressive achievement that serves our nonproliferation 
objectives and our nation's security.
    Most GIPP projects involve a United States industry 
partner. Through its industry outreach component, GIPP has 
facilitated partnerships commercializing technologies in use 
today: this includes land mine detectors, needle-free 
injectors, prosthetics, and radio-isotopes for cancer 
treatment. Russian scientists and U.S. industry both benefit 
from these partnerships.
    At the State Department's request, GIPP responded quickly 
to support nonproliferation priorities in Libya following its 
decision to abandon all WMD programs. We also partner with the 
State Department in Iraq, and are prepared to engage elsewhere, 
including in North Korea if circumstances warrant it.
    Notwithstanding our limited programs in Libya and Iraq, the 
bulk of GIPP work today remains in Russia. We recognize, of 
course, that in many respects Russia has changed in the fifteen 
years since scientist redirection work got underway. Russia's 
economy is stable and conditions in the closed cities are much 
improved. Accordingly, the threat of scientist migration is not 
one that gives us the greatest concern today.
    But the absence of a high risk of scientist migration does 
not imply zero risk or that the job is done. To the contrary, 
as long as proliferation demand exists, we have a requirement 
to cooperate with others to impede supply, whether that 
involves improved export controls, better border security, or 
scientist engagement. Absence of high migration risk does 
imply, however, that the manner in which GIPP has been 
traditionally carried out merits some recalibration.
    This is precisely the path we are on, started at the 
request of the NNSA Administrator roughly 18 months ago.
    At the Administrator's request, GIPP conducted an internal 
assessment, much along the lines proposed by the GAO in its 
principal findings. Our conclusion was that scientist 
engagement is contributing to our nonproliferation goals and 
should continue, but oriented better to meet the current 
threat. It should also contribute technologies more supportive 
of the NNSA mission, whether that involves technology for 
nuclear safeguards and security or proliferation-resistant 
nuclear energy systems or ensuring that our partners have a 
good security culture, which requires engagement of scientific 
personnel.
    The conclusion of our internal review was approved by the 
Administrator. Allow me to address a number of specific 
outcomes, nearly all of which correspond to comments in the GAO 
report.
    First, in light of a changed threat environment, GIPP would 
adopt a more focused approach, emphasizing those institutes or 
facilities involved with enabling WMD technologies or expertise 
and where the program could provide a stabilizing influence.
    Second, as I've alluded to, GIPP would calibrate the 
program to advance core NNSA nonproliferation and nuclear 
security imperatives. This includes directing new funds towards 
projects in Russia that support strengthened international 
safeguards and contribute to sustainable nuclear materials 
accountability and control, a high priority of our bilateral 
nuclear security agenda with Russia.
    Russia will be one of our most important partners in the 
effort to ensure that the global expansion of nuclear power is 
carried out in ways that reduce proliferation risks. Russia is 
a leading nuclear supplier and user and has nuclear energy 
expertise and facilities that rival our own in the United 
States. Hence, we have an interest in continuing engagement 
with Russia to ensure that the nuclear fuel cycle evolves in 
ways that are safer, more secure, and less prone to 
proliferation than the current generation of technologies. GIPP 
is one vehicle that can help that process.
    Third, in response to changing requirements and program 
improvements, GIPP reduced budget and uncosted balances. Annual 
appropriations peaked in 2002, when the program was funded at 
$57 million. The FY 2008 budget request was $22 million, and we 
are not planning for significant out-year increases. In 
addition, budget allocations to projects in Russia have been 
similarly reduced.
    Fourth, the program opted to cancel its Nuclear Cities 
Initiative (NCI), a joint program launched during Russia's 
economic crisis. The program's cancellation allowed for a 
savings of $10 million.
    Fifth, consistent with the trend away from assistance and 
towards genuine partnership with Russia, GIPP determined that 
it would promote the principle of project cost sharing. This is 
consistent with a recommendation in the GAO report; we fully 
support it.
    Taken together, these actions represent significant change 
that will strengthen the program.
    They also complement management reforms undertaken over the 
past few years, including those recommended by the GAO in past 
audits of the program. This includes a new, automated project 
management system to improve internal record keeping; a 
reduction in the program's uncosted balances by nearly 50%; and 
incorporation of a "sunset clause" in GIPP project approvals to 
ensure that work gets started promptly and accomplished on 
schedule.
    As the GAO recommends, there are additional steps the 
program can take to improve its management and process. Many 
are underway or will be accelerated. This includes streamlining 
our payment system for scientists that work on GIPP projects; 
updating performance metrics; improving our ability to verify 
the WMD bona fides of participating foreign scientists; and 
further reducing uncosted balances.
    Consistent with GAO recommendations, by the end of this 
fiscal year we also plan to update our program guidance; 
produce a strategic plan that will better align the purpose and 
implementation of the program; and more effectively articulate 
an exit strategy.
    In fact, as noted in our response letter published in the 
GAO report, while we have concerns, we say that "the report 
contains useful recommendations," and "can be helpful if it 
helps to spur the implementation of constructive program 
changes." We adhere to that position.
    To be sure, we have not agreed to every recommendation. We 
do not believe, for example, that a fundamental reevaluation of 
GIPP is merited at this time. Nor do we believe that the 
program has outlived its usefulness, which the GAO report seems 
in places to suggest.
    GIPP is modest in terms of budget - a tiny fraction of the 
total NNSA nonproliferation budget - but its purpose and need 
remain: our nonproliferation interests demand that we continue 
to address the proliferation threat in all its dimensions, 
including the risk of expertise being sought out and exploited 
by proliferator nations and organizations. Remaining directly 
engaged with these scientists through the GIPP program is an 
important part of the effort.
    Thank you for your attention and I look forward to our 
discussion.
                              ----------                              


    Ms. Schakowsky. Thank you.
    Mr. Stratford.

    STATEMENT OF RICHARD STRATFORD, ACTING DEPUTY ASSISTANT 
        SECRETARY, BUREAU OF INTERNATIONAL SECURITY AND 
                        NONPROLIFERATION

    Mr. Stratford. Thank you, Madam Chairwoman. At the outset, 
let me make a minor correction to the record. I am not 
Principal Deputy Assistant Secretary in the Bureau. I am the 
Acting Deputy Assistant Secretary for the nuclear side of the 
Bureau and I have only been doing that for about 3 weeks. In 
real life, I am the U.S. rep. for both the Nuclear Suppliers 
Group and the Zanger Committee, and I am also the person who 
negotiated both the United States-India and the United States-
Russia Agreements for Cooperation. That is my normal end of the 
business.
    Today I have a written statement for the record but I just 
want to pick out a few high points for the attention of the 
committee. Most of the statement deals with so-called Science 
Centers program which consists of the International Science and 
Technology Center in Moscow and the Science and Technology 
Center in Ukraine, which support efforts to reduce the risk of 
WMD terrorism by engaging and redirecting scientists, engineers 
and technicians in the former Soviet Union who have biological, 
chemical, nuclear or missile expertise. Now, we do that by 
approving and funding projects that are directed through those 
two centers. Those projects are reviewed in an interagency 
process to address issues including proliferation risk, 
consistency with U.S. policy, technical merit and market 
potential. Now, there are annual financial audits of the 
centers' operations and the Defense Contract Audit Agency and 
our scientists also conduct annual audits of projects.
    One of the things I have heard here so far is about cost 
sharing. We are engaging host states to increase cost-sharing 
funding of projects. We have a memorandum of understanding with 
Belarus where they contribute funds directly to institutes and 
we are also funding projects in Ukraine and Azerbaijan, 
splitting the cost 50/50.
    Now, there is a slight difference between what DOE focuses 
on and how we focus our program. We are less focused on the 
individuals than we are on the institutes. We started with 
about 200 institutes that we thought needed to be made self-
sustaining so we focused the projects at the institute and 
tried to make them self-sustaining in the longer term. Now, one 
of the other things I heard was the need for an exit strategy, 
and our exit strategy is to make those 200 institutes self-
sustaining. We hope to do that with about 20 a year. We hope to 
be out of this by 2012, which means we have a goal to get there 
from here. I think the program has generally been successful. 
Our overarching goal, as I said, is to help these institutes 
become self-sustainable, and when they are, we define that as 
``graduation'' from the program.
    Now, one of the other things I heard, oh, well, DOE is 
still funding projects at institutes that have graduated. That 
is true, but we do too. We can make a finding that an institute 
is self-sustaining but then after the fact we may look at the 
institute and say you know what, there is still a residual risk 
there regardless of whether it is self-sustaining and there may 
be something we can do about it through the Science Center 
program. Regarding the GAO's recommendations to work with NNSA 
to develop a joint plan to better coordinate the IPP program 
and our programs, the answer is, we concur. We are prepared to 
try to more closely coordinate program elements and will 
consult with DOE on implementing this recommendation.
    Madam Chairman, let me stop there but let me also say that 
with respect to the Science Center programs, we do have 
difficulties from time to time, so I don't want to leave the 
impression that all is sweetness and light. Sometimes Russians 
can be difficult. Right now, for example, they think they have 
a right to know what we pay people that we send to support the 
institute. They also have an issue with appointing a finance 
officer, who we happen to think is necessary. I hope we are 
going to settle that very shortly. But I just want to make 
clear that there are difficulties from time to time and we have 
to try to sort those out with our Russian host government 
colleagues.
    I am going to stop here and I am very pleased to answer any 
questions the committee might have.
    [The prepared statement of Mr. Stratford follows:]

                  Testimony of Richard J.K. Stratford

                              Introduction

    Thank you for the opportunity to speak with you today about 
one of State Department's successful programs to prevent 
proliferation of Weapons of Mass Destruction (WMD)-related 
expertise. We believe that the Science Centers program has been 
effective over the years and we appreciate the support we have 
received from Congress. We work through two multilateral 
centers in Moscow and Kyiv to redirect the activities of 
personnel capable of contributing to the development and 
deployment of weapons of mass destruction. This is an era of 
global terrorist threats that need to be met, while at the same 
time dealing with rising costs and budget constraints. These 
realities require us to continually assess our own efficiency 
and effectiveness while ensuring that important 
nonproliferation work continues to get done.

  Review of Department of State Cooperative Threat Reduction Programs

    Let me say a few words about our Cooperative Threat 
Reduction (CTR) programs generally. State's CTR programs have a 
global mission to redirect weapons of mass destruction (WMD) 
expertise worldwide. We do this by coordinating and overseeing 
the U.S. participation in and funding of the Science Centers to 
engage former Soviet Union (FSU) era biological, chemical, 
nuclear, and missile expertise through the centers in Moscow 
and Kyiv, the International Science and Technology Center 
(ISTC) and Science and Technology Center in Ukraine (STCU), as 
well as scientist engagement efforts in Iraq and Libya.
    State's redirection effort also includes the Bio-Industry 
Initiative (BII), which creates international commercial 
opportunities and public-private partnerships for former 
weapons scientists thereby promoting self-sustainability, 
reconfigures several large-scale former Soviet biological 
weapons production facilities for civilian biotechnology 
purpose, and engages self-identified former weapons personnel 
in projects aimed at accelerating drug and vaccine development 
to combat highly infectious diseases. Finally, State 
coordinates the BioChem Redirect (BCR) Program, which redirects 
former Soviet chemical and biological weapons personnel into 
peaceful sustainable civilian work and engages high risk 
facilities, with participation of U.S. experts from the 
Department of Health and Human Services (HHS), Department of 
Agriculture (USDA), and the Environmental Protection Agency 
(EPA).
    Even as we continue to work in Russia and the FSU, State's 
CTR programs also provide us with the capability to address the 
new and emerging global WMD threats that we face, including in 
Asia, the Middle East, and Africa. State's Biosecurity 
Engagement Program (BEP), which seeks to prevent bioterrorism 
by reducing terrorist access to potentially dangerous 
biological materials, equipment and expertise, initially 
focused on countries and regions outside the FSU where emerging 
bioscience sectors, highly infectious disease outbreaks, and 
terrorist threats coexist. Similarly, State's Chemical Security 
Engagement Program (CSP) engages experts from around the world 
to decrease the chemical threat by improving chemical threat 
awareness, improving chemical security and safety best 
practices in academia and industry, and increasing chemical 
security and safety by fostering collaborations between 
chemical professionals in academia and industry.
    In addition to meeting critical nonproliferation 
objectives, these programs advance Department of State efforts 
toward transformational diplomacy by building and maintaining 
ties to regions and countries of U.S. national security 
interest and by helping states, institutes and individuals 
build the capacity to help themselves. CTR programs also 
promote economic development and self-sustainability for 
institutes and individuals while achieving their mission of 
reducing the threat of WMD proliferation worldwide.

 U.S. Engagement at International Science and Technology Center (ISTC) 
        and the Science and Technology Center in Ukraine (STCU)

    The Science Centers program consists of the International 
Science and Technology Center (ISTC) in Moscow and the Science 
and Technology Center in Ukraine (STCU) in Kyiv and supports 
efforts to reduce the risk of WMD terrorism by engaging and 
redirecting scientists, engineers, and technicians in the FSU 
who have biological, chemical, nuclear or missile expertise. In 
addition to redirecting former Soviet WMD personnel, the 
Science Centers projects also aid civilian scientific research. 
Our Science Centers program focuses on evolving the Science 
Centers in Moscow and Kyiv toward partnerships with host 
governments, and continuing to engage and promote transparency 
and self-sustainability at high priority former WMD institutes.
    The Department of State acts as the U.S. representative in 
the two international science centers, the ISTC and the STCU, 
as well as our related redirection efforts, the BioIndustry 
Initiative (BII) and the Bio-Chem Redirect Program. Under the 
direction of Acting Under Secretary John C. Rood, each of these 
State-led efforts meets critical national security goals and is 
driven by threat information on nonproliferation and counter-
terrorism. Thus, we work closely with the entire U.S. 
interagency to identify the most pressing global threats for 
all of our Global Threat Reduction (GTR) programs, including 
the Science Centers in the FSU. State has authorities for the 
Science Centers Program through the Nonproliferation, 
Antiterrorism, Demining, and Related programs (NADR): chapter 9 
of part II of the Foreign Assistance Act of 1961 (22 U.S.C. 
2349bb et seq.). Additionally, the Science Centers support the 
objectives of the National Strategy to Combat Weapons of Mass 
Destruction, the United Nations Security Council Resolution 
1540, and the President's National Strategy for Combating 
Terrorism.
    U.S. Government funding for cooperative threat reduction 
activities, including the ISTC and STCU, is appropriated by the 
U.S. Congress to the Department of State, Department of Defense 
(DoD), and the Department of Energy (DOE) as the main entities 
charged with fulfilling the 1992 Nunn-Lugar Cooperative Threat 
Reduction Program mandate. Under the Nunn-Lugar Program, the 
three Departments work very closely on complementary efforts to 
lessen the global threat of WMD materiel and expertise 
proliferation from the FSU.

        Focusing Funding to Achieve U.S. Nonproliferation Goals

    While we had heavily funded general science projects with 
nonproliferation and scientific merit in the past, since the 
beginning of 2007 funding of regular projects has instead been 
concentrated on a small number of institutes that face the most 
important proliferation risks. In 2007, State worked closely 
with other U.S. agencies, including the Department of Energy, 
to focus Science Center activities on the highest priority 
institutes in the FSU and to help those institutes become 
financially self-sustainable. We have engaged with the other 
funding countries at the ISTC and STCU in a discussion about 
how to help institutes achieve those objectives and have 
approved new programs for 2008 at both Centers to achieve 
institute financial self-sustainability.
    Projects under consideration for funding are reviewed in an 
interagency process to address issues including proliferation 
risk, consistency with U.S. policy, technical merit, and market 
potential. These reviews also address the risk that the 
projects might inadvertently contribute to increasing the 
military capabilities of the recipient states, including 
Russia. Reviews are conducted on hundreds of proposals annually 
and there are also annual financial audits of the Centers' 
operations and a sample of U.S.-funded projects. The Defense 
Contract Audit Agency (DCAA) and our scientists also conduct 
audits of selected projects annually.

Transformation of the Centers to Meet Global Nonproliferation Goals and 
                         Become Self-Sustaining

    In order to address new and emerging global WMD threats, 
State led discussions at the ISTC about exploring opportunities 
to transform it through joint nonproliferation and counter-
terrorism projects, as well as joint projects in countries 
outside Russia and the CIS. State participated in drafting a 
Strategic Vision document for the ISTC outlining graduation, 
global nonproliferation, and efficiency goals. The Russian 
government is also addressing the question of how to transform 
the ISTC. In 2008, State intends to continue the discussion 
about transforming the ISTC to meet the emerging, new 
proliferation threats and to inaugurate a similar discussion at 
the STCU, a topic heavily stressed at its September 2007 
Advisory Committee meeting.
    In addition to funding for regular scientific research and 
development projects, Partner project funding, both from other 
U.S. Government agencies and U.S. private industry, is an 
increasingly important funding component at both Science 
Centers. Funding for Partner projects from the U.S. and other 
countries continues to rise and is essential for the future of 
the Science Centers to sustain their important nonproliferation 
work. For this reason, we have emphasized the importance of 
expanding efforts to attract global partners to the Science 
Centers and have contributed funding to these efforts towards 
making the Science Centers self-sustainable in the future.
    These objectives contribute to our vision of the 
transformation and evolution of the Science Centers toward a 
greater partnership between the financing parties, member 
nations, and the Centers to jointly address emerging, global 
nonproliferation challenges. Evolving cooperation on the 
redirection of former Soviet defense industry scientists to 
peaceful scientific pursuits is an excellent basis for 
cooperation on joint counter-terrorism nonproliferation 
programs and nonproliferation programs in other nations outside 
the FSU.

                        Host State Cost-Sharing

    State is also engaging host states to increase cost-sharing 
in the funding of projects. In 2007, the ISTC signed a 
Memorandum of Understanding with Belarus wherein Belarus 
contributes funds directly to its institutes for items such as 
equipment when projects are funded through the ISTC. State also 
jointly funded Targeted Research Initiative (TRI) projects 
through the STCU in Ukraine and Azerbaijan, splitting the cost 
50/50, between the funding parties and the host state 
respectively. For 2008, State aims to continue the tradition of 
joint-funding TRIs with Ukraine and Azerbaijan and hopes to 
reach an agreement with Moldova on sharing the costs of TRIs. 
State has also encouraged this kind of scientific and 
nonproliferation cooperation with host states at the ISTC, 
specifically by requesting Russian funding for projects and 
staff salaries.

           Achieving Institute Financial Self-Sustainability

    In place of State's previous levels of regular project 
funding, the U.S. has focused its funds toward specific 
institutes to achieve self-sustainability and "graduation" from 
State project funding. We re-evaluated the emphasis on regular 
project funding in favor of multilateral partnerships to meet 
emerging global nonproliferation and cooperative threat 
reduction challenges and needs. Therefore, we proposed to meet 
this objective by emphasizing scientific institute self-
sustainability and "graduation" from U.S. regular project 
funding.
    Of the thousands of scientific institutes in the ISTC and 
STCU member nations, we categorized approximately 200 core 
institutes as "priority" institutes for a self-sustainability/
graduation discussion. We determined that many of these 
institutes were already self-sustainable and have grouped the 
remaining institutes by the year in which we believe they can 
reach financial self-sustainability through ISTC engagement, 
implementing an institute-specific self-sustainability plan, 
and by gaining enough funding on their own.
    Our over-arching goal to redirect FSU WMD expertise 
includes giving these and other institutes the tools to become 
self-sustainable - to be able to conduct peaceful world-class 
research and development by attracting national and 
international funding independent of regular project grants 
from the U.S. (and perhaps other financing parties) via the 
ISTC or STCU. We define this as "graduation" from U.S. regular 
project funding. We will look to the ISTC and STCU to help us 
to implement this vision, but we will continue to work closely 
with individual institutes and the Science Centers to develop 
individual sustainability plans and a systematic approach to 
self-sustainability.
    One self-sustainability component has been, and will 
continue to be, commercialization in its largest sense, meaning 
greater emphasis on national and international industrial 
partnerships to develop technologies and entities with market 
potential. Aspects of commercialization are already in place at 
the ISTC via its commercialization program know called 
Innovation Initiatives (formerly the Commercialization Support 
Program) and at STCU through the Targeted Research Initiatives. 
For both these commercialization initiatives, State has worked 
with and drawn from the Department of Energy's own 
commercialization efforts in the Initiatives for Proliferation 
Prevention program.
    Regarding the GAO's recommendation to work with the 
Administrator of the National Nuclear Security Administration 
and the Secretary of Energy to develop a joint plan to better 
coordinate the efforts of DOE's Initiatives for Proliferation 
Prevention Program (IPP) and the ISTC's Innovation Initiatives, 
State concurs with the recommendation to more closely 
coordinate these program elements and will consult with DOE on 
implementing this recommendation. We expect that self-
sustainability for many institutes will be achieved through 
contribution to host government peaceful priorities - leading 
to increased host government funding for the institutes.
    In 2007, State led discussions on creating institute 
sustainability programs at both Centers. A presentation on the 
need to graduate institutes to self-sustainability was given to 
both Centers' at their fall Governing Board meetings in 2006, 
and the U.S. hosted a multilateral discussion with participants 
from both Centers and the funding parties on how to create and 
implement an institute sustainability program, as well as 
discussed what the measures for success would be. For FY2008, 
State has made it a priority to advance the Center's newly 
approved programs for institute financial self-sustainability 
and to contribute significant funding for these programs. For 
example, the U.S. has added a day of meetings to a routine 
Coordination Executive Committee meeting this March in order to 
discuss how institute-specific sustainability plans at the ISTC 
will be implemented by the funding parties. Similar discussions 
will also be held at upcoming STCU meetings. In this spirit, 
State is working with the Centers to focus all remaining and 
additional activities on improving the financial self-
sustainability of scientists and institutes.

                             Exit Strategy

    We have developed an exit strategy for leaving the 
scientists engaged and the institutions that employ them better 
prepared to sustain themselves in peaceful work. The ISTC and 
STCU are now major nonproliferation implementation platforms 
and complement other USG programs, including the U.S. 
Department of Energy's IPP and the U.S. Department of Defense's 
Cooperative Threat Reduction (CTR) program, and programs of 
other governments. These coordinated programs engage WMD or 
dual-use scientists in peaceful research and also design and 
fund services, training, and competency building to guide 
former Soviet WMD/missile and dual-use experts toward economic 
self-sustainability and a permanent transition to stable and 
peaceful civilian employment.
    The Department of State seeks to "graduate" to financial 
self-sustainability approximately 20 former Soviet defense-
related institutes across the biological, chemical, nuclear, 
and missile spectrum per year up to 2012. Also, our discussion 
on transformation of the Centers to address global 
nonproliferation goals is based on the need to position the 
Centers so that they may continue to sustain themselves in 
their important work as well as engage host states in global 
nonproliferation aid and activities without direct foreign aid 
from the U.S. and other funding parties. Further, by expanding 
the Partners Program, we hope to increase private investment in 
the Centers as State gradually reduces funding in order to 
redirect resources to other State programs which aim to address 
new and emerging global proliferation threats.

                               Challenges

    While the Science Centers program has been successful in 
many areas, State faces a challenge as we seek to strategically 
transform the two centers and our redirection efforts through 
those centers. Our current efforts are targeted at transforming 
the centers to focus on graduation and sustainability, joint 
nonproliferation and counterterrorism programs, greater 
financial responsibility on the part of host states, and 
working cooperatively to address the worldwide terrorist 
threat. State is working hard with all the stakeholders, 
partners, and funding countries to accomplish these goals.

                               Conclusion

    We will continue to carefully review DCAA audit reports, 
taking special note of recurring problems, and will follow up 
with the Centers about those issues. Also, we will continue to 
ensure that 50% of scientists on a project have WMD expertise 
as a guideline for funding decisions. We are also working with 
the science advisors from the national labs to improve the 
effectiveness of our programs.
    We believe that better cooperation and partnership on 
nonproliferation issues between all U.S. agencies redirecting 
expertise in the FSU, and specifically between Science Center 
parties, deepens the bonds between all constituent parties, 
thereby strengthening the shared nonproliferation mandate and 
contributing to global betterment as well.
    As we continue to address proliferation concerns in Russia 
and the former Soviet Union (FSU), we also must address new and 
emerging proliferation threats in regions with high terrorist 
presence and/or activity through other threat reduction 
programs of the Department of State that address chemical, 
biological, radiological, and nuclear (CBRN) threats reduction 
worldwide.
    Thank you.
                              ----------                              


    Ms. Schakowsky. Thank you.
    We will begin the questions now. Let me start with a few 
myself. Mr. Scheinman, Mr. Robinson asserted that the DOE 
disagreed with the recommendation to fundamentally reassess the 
IPP program. Is that accurate, and why would that be? It seems 
to me that in your opening statement that you talked about many 
things that would I think add up to a kind of fundamental 
reassessment, so why wouldn't we start from the beginning and 
reassess this program?
    Mr. Scheinman. I think the answer is that we feel we have 
already conducted that fundamental assessment, or reassessment 
of the program, and it was done at the administrator's 
direction, and if I had to guess, if we were to expand the 
staff time to do it all again, I think we would come to the 
very same conclusion that we reached and that is supported in 
fact by many of the GAO recommendations, and that is the need 
to focus on the threat as we perceive it today and not 
necessarily as we saw it 15 years ago. The threat has clearly 
changed. I think our focus has to shift from addressing the 
risk of mass migration to a more focused approach and the 
focused approach is based on our analysis of risk. We are doing 
that, and in fact, we completed our----
    Ms. Schakowsky. You went over many of those.
    If I could ask Mr. Robinson, what about the kinds of 
changes that DOE has already expressed a willingness to do does 
not comply with this overall reassessment?
    Mr. Robinson. Our understanding of the 2004 and 2006 
assessments I think Mr. Scheinman is referring to is, it 
doesn't quite meet what we would be looking for in a sort of 
fundamental reassessment in that it doesn't get into a lot of 
specifics. The 2006 in particular seems to be kind of a loosely 
prepared set of observations, one of which, by the way, seems 
to conclude that there isn't a heck of a lot of accomplishment 
so far from the effort. But what we would be looking for is 
something----
    Ms. Schakowsky. You are saying that DOE concluded that 
itself?
    Mr. Robinson. Well, I mean, there is an observation in the 
document that says something to the effect of after 11 years of 
performance, we are not sure we have actually accomplished 
any----
    Ms. Schakowsky. Anything?
    Mr. Robinson. No hard evidence that GIPP or any other 
scientist engagement in the program has prevented the migration 
of even a single scientist. So, I mean, that is an observation 
that is incorporated in here but, you know, I wouldn't regard 
that as the definitive observation of this. As I mentioned, it 
is sort of a loose assemblage of information. Now, on the other 
end, from what we understand, DOE is now embarking upon a very 
precise reassessment of risk which is an outstanding idea. From 
that, I think we would be looking for them to translate that 
into, you know, specific institute-by-institute, person-by-
person kind of assessment of whether these funds should 
continue to these locations, and then as we have emphasized in 
the past, how do you know when you are finished or is this an 
open-ended, never-ending insurance policy that is sort of 
broadly cast. So that is the kind of specificity that I think 
we may be somewhat disagreeing with.
    Ms. Schakowsky. Thank you.
    Mr. Scheinman, isn't it the case that the DOE program 
guidance requires 60 percent at minimum of the scientists have 
to be employed during the Soviet era? I mean, many of us have 
noted the fact that 54 percent of the scientists paid through 
the program have no experience with weapons of mass 
destruction. Sixty percent of those audited had not been 
Soviet-era scientists. So, I mean, isn't this in noncompliance?
    Mr. Scheinman. Well, the guidance that is quoted is 
guidance. That is how we attempt to structure and to implement 
the program. I think our view is that the preponderance of 
individuals that are participants in all GIPP projects are 
those who have WMD background, either related directly to 
weapons or related to the underlying technologies, and I think 
what we have come to learn is that these programs really only 
work if we involve not just technologists who were born in the 
1930s and the 1940s but younger scientists as well can help 
bring technologies to the marketplace.
    Ms. Schakowsky. Thank you.
    Let me now turn it over to our new ranking member, Mr. 
Shimkus.
    Mr. Shimkus. Thank you, Chairman. It is a great hearing. I 
appreciate your time.
    Mr. Robinson, the methodology was basically, you followed 
the money, where the money was going, then you looked at the 
resumes or the background of the people who were receiving it. 
Is that correct?
    Mr. Robinson. Our methodology was pretty wide-ranging and 
fairly intensive, but relative to the background issue, which I 
think is probably what you are referring to, the judgment that 
so many of these folks did not claim weapons background, what 
we did essentially was two-pronged. We asked the laboratories 
that oversee the projects to basically fill out an Excel 
spreadsheet for us on each one of the projects. We then 
supplemented that information with review of records that--
DOE's records on payments and the like and so essentially we 
are using DOE's own information, either directly provided 
through an Excel spreadsheet presentation or our review of the 
payment records.
    Mr. Shimkus. Great. Thank you.
    Mr. Scheinman, you heard the opening statement where I went 
through the approximately $11 billion of U.S. payments for 
energy resources to Russia. In the Department of State program, 
they have asked for cost share or assistance by governments. 
Have you asked for that from the Russian government?
    Mr. Scheinman. I don't believe we have asked for that to 
this point but one of the outcomes from our assessment that was 
conducted at the request of the administrator was that we move 
precisely in that direction. And so as look to projects in 
fiscal year 2008, where incidentally we see a shared set of 
interests between what we want and what we think would be in 
Russia's national interest, which is nuclear safety, security 
and better safeguards that we can pursue that kind of cost 
sharing.
    Mr. Shimkus. It is my understanding that assessment was 
done 2 years ago?
    Mr. Scheinman. The assessment was briefed to the 
administrator in I believe the fall of 2006.
    Mr. Shimkus. So the question is, if that was the fall of 
2006, we have already gone 1 year. Have you asked Russian 
participation financially in the program in the past year and 
couple months?
    Mr. Scheinman. I am not aware. I will have to----
    Mr. Shimkus. Let me----
    Mr. Scheinman. I accept the point. It is time to do that. I 
would note that for the Nuclear Cities Initiative, at the time 
we were thinking about renegotiating the government-to-
government agreement which lapsed and which we did not renew as 
part of our drawdown efforts. We did have in there that the 
condition of continuation with Russia would be cost sharing.
    Mr. Shimkus. And Mr. Stratford, you mentioned in this line 
of questioning the self-sustaining aspect and that even though 
it is self-sustaining, there may be times to be of assisting. 
In the self-sustaining analysis, are private-sector entities 
part of this? In other words, it looks like GE and Ford are 
partners in some of the IPP out of the DOE. There is a lot of 
literature. Eastern Europe is kind of a hobby of mine, chairing 
the Baltic Caucus, following Belarus issues, democracy issues 
there, the Baltic countries. There is great movement by--there 
are great recent stories about IBM being a worldwide business 
company that is looking and hiring in St. Petersburg. A lot of 
U.S. multinational corporations are there. Is part of the self-
sustaining aspect the private sector?
    Mr. Stratford. Not nearly as much as DOE, and there is a 
reason for that, which is that we ask our Russian colleagues 
for examples to suggest projects that they can work on, and if 
we like it we agreed to fund it if we think the lab is the 
place that something needs to be funded. Now, those projects 
are supervised by people from the national laboratories----
    Mr. Shimkus. Sir, let me just try to--I only have 45 
seconds left and I want to get this last question in because it 
is really a question based upon our legislative 
responsibilities. Is there a question about the movement of 
these funds into Libya, the possible use of these funds into 
North Korea should there be changes, Iraq? Is there a the clear 
line of authorization with appropriations based upon the 
initial language? I think it is the DOE program I am talking 
about and I think your analysis says that we may need to effect 
legislative language to clarify that. Mr. Robinson, is that 
fair?
    Mr. Robinson. I think that is a fair characterization. It 
would be far preferable to have a clear sense of congressional 
authorization to make this transfer and it is one of our 
recommendations that I think DOE concurs with.
    Mr. Shimkus. And as authorizers, I think we as a committee 
would probably like to move in that direction.
    My time is expired. Thank you, Madam Chairman.
    Ms. Schakowsky. Mr. Walden.
    Mr. Walden. Thank you, Madam Chair.
    I want to see if I have got this right, Mr. Robinson. Did I 
hear you correctly say we have had 14 years, $300 million and 
haven't identified one scientist in Russia that we have kept 
from going out of Russia?
    Mr. Robinson. What I was doing was quoting one of the 
documents that the DOE has prepared in doing their 
reassessment. It goes to the fuzzy nature of the program, that 
it is hard to specifically identify anybody that was prevented 
from doing something. That is correct.
    Mr. Walden. And that half of the scientists of the 97 
projects that were reviewed had no weapons background?
    Mr. Robinson. Did not claim any weapons background in any 
of the documentation that either the DOE labs provided or in 
their own documentation submitted to DOE.
    Mr. Walden. And then I guess things--you know, obviously 
this program was begun with the best of intentions. I mean, 
none of us wanted at the time of the collapse of the Soviet 
empire or Soviet Union to have these folks just go out to the 
highest bidder in the worst country in the planet, and so I 
mean, it started with good intentions. A lot has changed since 
then. And is the issue really now as much how they transfer 
information as their physical movements? In other words, we 
have supplied these institutes with fax machines and e-mail and 
computers they didn't have before, and we know from oversight 
hearings here on Los Alamos and everywhere else, even here we 
see secrets that are taken out of secure areas to non-secure 
areas. Is that happening as a result of--are we actually 
investing in the new technology that allows them to share 
without leaving?
    Mr. Robinson. I can't speak to that specifically. I can say 
that the Russians are quite, you know, appreciative of the 
money that is provided because it has enabled them to recruit 
and retain a whole new class of Russian scientists that 
ultimately could do whatever down the road.
    Mr. Walden. And isn't it true that Russia is engaged in 
nuclear commerce with Iran including shipping nuclear fuel to 
Iran?
    Mr. Robinson. I believe that is publicly stated by Mr. 
Putin.
    Mr. Walden. And so isn't it reasonable to assume that we 
are actually funding with money we are probably borrowing from 
China to give to Russia to train nuclear engineers to help Iran 
develop its nuclear energy?
    Mr. Robinson. I don't think I have the evidence to either 
support or refute that specifically but I guess----
    Mr. Walden. Can either of our other two witnesses tell me 
that is not happening with certainty?
    Mr. Stratford. I don't think I would put it quite that way.
    Mr. Walden. Well, I am sure you wouldn't but is it 
happening?
    Mr. Stratford. Well, the answer to your first question is, 
yes, Russia is cooperating with Iran in the nuclear area. They 
have transferred the Bushier reactor and they are now in the 
process of transferring the fuel for that reactor and that does 
not necessarily make us happy but that is what they choose to 
do. Yes, you could argue that if you give Russia a dollar for 
whatever purpose, it frees up a dollar that can then be spent 
elsewhere whether it is a nuclear engineer going to Iran or for 
other portions of the Russian nuclear program. Yes, you could 
make that argument. But that having been said, do you want to 
try to close a proliferation risk. Now, State is not normally 
considered to be a program agency. If there was a consolidated 
program with all of these things together at DOE, I suspect we 
would not be clamoring for money to go to science centers. But 
somewhere 13 or 14 years ago, somebody made a decision that 
that was a good thing for State to do and having been handed 
that task and having been appropriated funds, we are going to 
do the best we can. That having been said, as I said, we do 
have an exit strategy. We would like to be out of this business 
by 2012 and have graduated all of these institutes.
    I heard a line that are we trying to move money from Russia 
over to other threats. Yes, we are. The amount of money that we 
have asked for for the Science Center programs is declining. It 
is going to keep declining. Is the money going to go elsewhere? 
Yes, because we are putting more money into Iraq and we are 
putting more money into Libya.
    Mr. Walden. Mr. Scheinman?
    Mr. Scheinman. If I may just add to that response, we 
certainly have--I don't think you were implying we have no 
evidence that any funding that we have provided to support 
scientist engagement has found its way into proliferation 
transactions, whether that involves information or direct 
support from Russia to another country, and if anyone does have 
that information, we would obviously be very interested in 
seeing it. We would make adjustments in accordance with it. I 
think the other half of my response would be that GIPP can be 
measured in hard objective and tangible ways but I think it can 
also be measured in terms of soft accomplishments, and among 
those accomplishments are working with Russia on preserving a 
security culture, hopefully improving the ethics of scientists 
who are involved in those programs, and I believe that through 
the access and the transparency that we have, we are making a 
difference, even if I can't count it on my fingers and toes.
    Mr. Walden. I guess we are just trying to figure out this 
program created with the best of intentions to solve a very 
real threat continues on and I guess we get these GAO reports 
back, and it is hard to go home and defend handing out the 
money to Russia, especially when we are sending them a lot 
right now through oil payments and everything else, so their 
economy seems to have really turned around, a lot of domestic 
investment there, private sector.
    Thank you, Mr. Chairman. My time has expired.
    Mr. Stupak. Thank you. Let me follow up along the lines of 
something Mr. Walden said about, we have this agreement with 
Russia but Russia has other bilateral agreements with other 
countries such as Iran to develop nuclear, so any agreement 
under the IPP program doesn't prevent Russia then from turning 
around and transferring technology or information to other 
countries such as Iran that they have an agreement with, is 
there? Mr. Scheinman?
    Mr. Scheinman. No, there is nothing to prevent Iran from 
doing that. There is really no relationship though, as I see 
it, between IPP projects and Russia's conduct except insofar as 
our engagement keeps Russia focused on nonproliferation 
projects.
    Mr. Stupak. Don't the agreements we have with them to work 
on certain commercial projects, can't that be a benefit not 
only to Russia but other countries that they may have a 
bilateral agreement with that we do not, that the United States 
does not?
    Mr. Scheinman. In theory, I suppose if we are working on 
nuclear energy-related----
    Mr. Stupak. Well, you have all these projects going on, I 
think about 35 of them, that are developing new things 
including reprocessing of fuel rods and which this country is 
concerned about because the last 3 percent of reprocessed rods 
is plutonium, weapons-grade plutonium. Isn't that a concern?
    Mr. Scheinman. If we were to transfer technology to Russia 
related to reprocessing spent fuel, a whole additional set of 
controls are built in as a result of--
    Mr. Stupak. Between United States and Russia, but not 
Russia and Iran.
    Mr. Scheinman. U.S. controls follow the technology that is 
either replicated or material that is used from technology 
provided. We do not provide that technology to Russia.
    Mr. Stupak. Well, the significance of the program, and as I 
said in my opening, I thought it served a valuable purpose. 
State said they are closing their program down by 2012. DOE 
continues to look for ways, it almost looks to like expand the 
program. I think it is a slush fund for the national labs. That 
is what I believe this program has turned into. But really, how 
is the program as currently administered going to help when 
Russian scientists in the IPP program receive about $35 a day? 
Is $35 a day enough incentive to keep Russia weapons of mass 
destruction from migrating to rogue states or to terrorist 
groups?
    Mr. Scheinman. Well, I think I can only answer that 
question with respect to the support that we do have from 
Russia to engage in these programs. They seem as interested in 
pursuing the cooperative arrangements in partnership with 
industry or with the national laboratories, so----
    Mr. Stupak. Well, therefore, shouldn't private labs or 
national labs or Russia take more responsibility? I mean, the 
program as it is currently outlined, $35 a day isn't going to 
keep anyone from doing anything.
    Mr. Scheinman. Sir, we do believe that the program should 
transition from one of assistance to partnership and that 
implies cost commitment from Russia, and that is the direction 
we hope to go.
    Mr. Stupak. Well, then why does the State Department, they 
are going to close theirs down by 2012, and why is DOE still 
funding, as I said, 35 projects at 17 institutes which the 
State Department has already graduated from the Science Centers 
program? It seems like you are just, I don't want to say 
duplication but State is winding it down, you are maintaining 
or expanding.
    Mr. Scheinman. I think we are focused on a different 
community of institutes through our work. The State Department 
has principally focused in recent years, certainly in the last 
year, on institutes that are evolving towards self-sustaining 
capacity whereas our programs have been focused on institutes 
that haven't reached that mark, so there is a community of 
institutes. We have been focused more on high-risk institutes 
that haven't perhaps enjoyed the economic recovery of others 
whereas the State Department has focused on institutes that are 
in better shape. I note that the State Department's list of 
high-risk institutes includes those that we are involved with, 
and as Mr. Stratford said in his set of remarks, the absence of 
a cooperative program doesn't imply no risk. There is still 
risk at a number of these institutes that are in a better 
economic position just by virtue of the technology and 
expertise that they possess.
    Mr. Stupak. But GAO also points out that these so-called 
institutes you are talking about, those scientists who worked 
in the Soviet era are gone. Now you are training new ones which 
really sort of in a way creates proliferation, not 
nonproliferation. So do you want to comment on the last point 
about the 17 institutes which State has already graduated? Why 
shouldn't DOE be graduating institutes?
    Mr. Robinson. Well, our clear position is that there needs 
to be some very specific criteria for graduation, that these 
things shouldn't go on into perpetuity, that if you are going 
to have an insurance policy, it shouldn't be so completely 
open-ended, protect against every possible risk that might come 
down the pike. We don't have enough money to do that in the 
world. So I think what we are looking for here is getting a 
very precise set of graduation criteria and then apply them 
while also focusing whatever program activities are conducted 
at the highest risk, the real risks of proliferation, not 
training, you know, new scientists to do other things.
    Mr. Stupak. Are you developing that criteria, specific 
criteria so you can graduate?
    Mr. Scheinman. Yes, we plan to do that in the coming year. 
As the GAO recommended, we plan to articulate and implement an 
exit strategy that includes that set of criteria and does 
provide us to wind down in Russia, which we have been doing.
    Mr. Stupak. OK, you say that. Let me show you tab 3. Do you 
have the binder? Would you hand it to Mr. Scheinman there, 
please? Do you have one in front of you? I think it is tab 3 on 
the table in front of you. It is the IPP program guidance dated 
2002, which was transmitted to the committee last week, and 
turn to the area of page 78. It should be flagged there for 
your convenience. Because you say that and I am a little 
concerned because when I read it, and I am on page 78 here, and 
I think it is highlighted there for you, ``IPP requires that a 
preponderance of the staff working on its projects have had 
weapons of mass destruction relevance experience before 1991. 
The meaning of preponderance is taken to be 60 percent as a 
bare minimum. Two-thirds would be better, and anything above 
that, better still.'' Then it says, ``Add note for HQ. This 
needs to be changed to read 50 percent once the current GAO 
business is over. The dictionary definition for preponderance 
includes 50 and above but GAO is right, we should have changed 
this at the point when the practice was modified.'' Do you see 
that there, Mr. Scheinman?
    Mr. Scheinman. Yes.
    Mr. Stupak. So it looks like you are just going to change 
the text here just to get GAO off your back and you go back to 
what you want to do.
    Mr. Scheinman. That is an unfortunate----
    Mr. Stupak. But it accurately reflects the attitude at DOE; 
let us just say what we think we want them to hear, we will say 
what we think they want us to hear and then we will go back and 
do what we always did.
    Mr. Scheinman. No, sir, I don't believe that is correct, 
and I would refer you back to our assessment that was conducted 
at the request of NNSA Administrator Brooks where we outlined 
the requirement to change our focus to deal with the threat as 
we see it today and not the threat as we understood it to be 15 
years ago, and among the recommendations in that report is that 
we develop an exit strategy and implement it, that we focus on 
the community of institutes that might present risk and thereby 
change our focus in the metrics and performance process, 
instead of counting numbers of people, to count institutes 
where we understand risk to be, number 2, and number 3, to 
focus our work in areas that are more directly supportive of 
nonproliferation including safeguards, security and 
proliferation resistance. That is what we are about.
    Mr. Stupak. Well, there is skepticism because it seems like 
State is moving forward with this program that has outlived its 
usefulness where you guys are still not doing it. Let me ask 
you one more question and then Mr. Inslee showed up, I will 
turn to him. Nuclear cities--Russia shut down about 10 cities 
that had nuclear. You don't have any program in those 10 
cities, do you?
    Mr. Scheinman. Russia didn't shut down the cities.
    Mr. Stupak. I didn't say shut down the cities. I said shut 
down the nuclear program in 10 cities, right?
    Mr. Scheinman. Well, no, nuclear programs continue in those 
cities.
    Mr. Stupak. But there are about 10 of them?
    Mr. Scheinman. There are 10----
    Mr. Stupak. Do you have programs going for those scientists 
in those cities?
    Mr. Scheinman. We do have a number of projects that involve 
those cities but the Nuclear Cities Initiative itself we 
decided to cancel in part because the focus of that program was 
frankly beyond our means to implement.
    Mr. Stupak. Well, the Nuclear Cities Initiative, you called 
it, right?
    That was one program that came underneath the IPP. That one 
is sort of shut down so why can't this one be shut down?
    Mr. Scheinman. The focus of the Nuclear Cities Initiative 
was to deal with the risk of mass migration and to focus on 
jobs and defense conversion. Our view of the program following 
our assessment with the administrator was that that is not the 
way we need to conduct this program, that the risk is not mass 
migration, the risk is that proliferators whether they are 
countries or terrorist organizations are going to target 
specific institutes because of the technology that they 
possess, so our program therefore made--our objectives made 
less sense in the Nuclear Cities Initiative context and require 
adjustment in the IPP context where we are going to focus not 
on jobs and defense conversion but on promoting technology 
partnerships that promote our nonproliferation objectives.
    Mr. Stupak. Mr. Inslee for questions.
    Mr. Inslee. Thank you.
    Mr. Scheinman, I am just looking at the--there is a program 
guidance requiring 60 percent at a minimum of scientists who 
have been employed during the Soviet era to be involved but I 
am advised that that hasn't been met. Could you comment on 
that?
    Mr. Scheinman. I believe we have engaged certainly more 
than 50 percent of former WMD scientists. I don't know that we 
have attained the goal of 60 percent, which is a goal we still 
hope to--we strive to meet.
    Mr. Inslee. I should--in fairness, it was a reference to a 
GAO audit of 97 IPP projects and they found fewer than half, I 
am advised.
    Mr. Scheinman. We don't agree with that number. Based on 
our records and our checks which we conducted again just after 
the--or as the report was coming forward, our review shows more 
than 50 percent of participants have WMD expertise.
    Mr. Inslee. And it is fair to say you are going to continue 
that effort to boost that, I hope?
    Mr. Scheinman. Correct. And I would just add, if I may, 
that based on the direction that I have recommended the 
program, promoting safeguards, security and related 
nonproliferation topics, the community of experts that we would 
draw from are more clearly related to WMD either expertise and 
technology or the enabling technologies. That is very much what 
we plan to do.
    Mr. Inslee. We encourage that. Thank you very much.
    I yield back.
    Mr. Stupak. Mr. Walden, any further questions?
    Mr. Walden. Thank you, Mr. Chairman, and I want to thank 
our witnesses and I want to thank the GAO.
    You know, it seems like every year hundreds of scientists 
retire from our own weapons laboratories at Sandia National 
Lab, Los Alamos, Lawrence Livermore and the nuclear weapons 
scientists have vast and detailed knowledge regarding our 
weapons systems and capabilities. What do we do? What does the 
Department of Energy do to make sure that our own retired DOE 
weapons scientists aren't sharing their knowledge and what are 
we doing to recruit new people into this field so that we are 
keeping pace with technology?
    Mr. Scheinman. That is a good question. I think you will 
find that across the Department of Energy and its national 
laboratories, it is certainly my experience, and I have 
visited, I think, virtually every lab and site, that you will 
not find stronger patriots than those who have gone through our 
nuclear weapons programs and production facilities. That being 
said, every technology transfer, whether that is an e-mail or 
work that might be conducted for a foreign partner, has to run 
through a rigorous set of export controls and internal reviews, 
so I think we have been in pretty good shape, not to say that 
there hasn't been hardship in locations where facilities have 
closed down.
    Mr. Walden. But my question was more about our retired 
scientists and I am not questioning their patriotism at all, 
but I am just saying, some people as we know, we have had 
intelligence experts in our various agencies that have been on 
the take and been busted but after years of damage to America's 
security; do we have a plan in place to kind of monitor our 
former nuclear scientists? I mean, we seem to have a lot of 
plans in place to deal with the Russians.
    Mr. Scheinman. If those programs and plans are in place, I 
am not aware of them. It would be another part of the 
Department of Energy that would take interest. But to answer 
the other half of your question, we certainly are struggling in 
the United States with respect to our own brain drain, not in 
terms of the transfer of information to other countries or 
organizations but just the mere fact that we have been out of 
the nuclear energy business so long that the associated 
infrastructure associated with nuclear power has attritioned 
and we need to rebuild it, and it is very much one of our 
interests--an interest of my program is to build the next 
generation of safeguards and nonproliferation experts so that 
we can regenerate that level of expertise across our labs.
    Mr. Walden. Mr. Robinson?
    Mr. Robinson. Just to elaborate and expand upon that, this 
is a significant national issue. It is not just in the weapons 
side but in the nuclear power side if we are going to build, 
you know, a substantial number of new plants, the NRC side, and 
it is not just the scientists themselves. We have had 
consultation with a lot of folks in academia, and the 
availability of professors to teach the next generation of 
nuclear scientists is drastically diminished.
    Mr. Walden. Good point.
    Mr. Robinson. So it is actually slightly better than we 
might have otherwise imagined.
    Mr. Walden. And while you have the microphone there, 
according to GAO testimony, the Department of Energy has wasted 
a significant portion of the IPP budget due to mismanagement. 
Now, we know at Los Alamos we have experienced countless 
security incidents that have compromised classified information 
and frankly put the Nation's security at risk. This oversight 
committee over the last few years has conducted both public and 
classified and closed hearings on this problem. Do you think 
that the money we wasted on the IPP program would be better 
spent on security improvements at Los Alamos where we know 
classified information is not always handled properly? Do I 
need to hold up my J-B Weld prop again?
    Mr. Robinson. Mr. Walden, that is a tough question. The 
amount of money going into this program, the IPP program, is 
not huge. It is almost two different things. It is hard to know 
exactly, you know, how a transfer would----
    Mr. Walden. Well, the question is somewhat rhetorical in 
its nature.
    Mr. Robinson. OK. I took the bait unnecessarily then.
    Mr. Walden. No, no, it has a serious piece to it as well, 
and that is----
    Mr. Robinson. Well, no, as you well know----
    Mr. Walden [continuing]. We keep an eye on Los Alamos and 
elsewhere and I think they have made improvements but----
    Mr. Robinson. As you well know, we have done a vast amount 
of work and continue to do a vast amount of work on physical 
security at Los Alamos. We are doing a huge project right now 
on cyber security, given all the extensive problems that have 
been experienced. So our investment on that initiative is even 
much bigger than it is on this side of the house, frankly. We 
are working with you on that.
    Mr. Walden. Thank you, Mr. Robinson, and gentlemen, thanks 
for your testimony.
    Thank you, Mr. Chairman.
    Mr. Stupak. Mr. Robinson, that cyber security at Los 
Alamos, since we have had so many problems, that could be done 
at a different nuclear lab, right?
    Mr. Robinson. I am sorry?
    Mr. Stupak. The work being done at Los Alamos on cyber 
security, that could be done at a different lab, could it not? 
One where they have security? Well, we do three hearings a year 
on Los Alamos breach of security. Some of us think it has 
outlived its usefulness. Now, I will get myself in trouble and 
all my New Mexico friends will be calling me but----
    Mr. Robinson. I was going to say, there are a great many 
folks in New Mexico on both sides----
    Mr. Stupak. Yes, there are.
    Mr. Robinson [continuing]. That would object to any comment 
on that.
    Mr. Stupak. That is true. I won't put you on that position.
    Ms. Schakowsky, questions, please.
    Ms. Schakowsky. Just a couple of things. I do find it 
really troubling that one, there is no evidence that any one 
person could be identified, according to the DOE, Mr. Robinson, 
Mr. Scheinman, that actually was deterred from being in a 
situation that would put us at risk, and there is also no 
evidence, Mr. Scheinman, that it has, you said, increased 
proliferation, which means there is no--I don't know if that 
means and maybe you can answer me that no one has really looked 
at that. I mean, the whole thing seems to me that it has kind 
of been a little--there has been very little oversight, that it 
has developed a kind of life of its own. People have decided 
what its mission is from time to time and changed it or 
expanded it, and that measurements, you talk about soft things, 
well, that is all fine except that, you know, we are talking 
about a lot of money and I think that taxpayers and the 
Congress would like some metrics anyway that would say we know 
that this program is doing what it was intended to do. These 
are really more in the way of comments.
    Let me just ask you this. The current budget now from DOE 
is what? Did you say it is down to 30 something?
    Mr. Scheinman. Roughly $30 million.
    Ms. Schakowsky. Thirty million, and Mr. Stratford, on the 
State side. How much is that?
    Mr. Stratford. For science centers for fiscal year 2008, we 
have asked for and will probably get $12 million total.
    Ms. Schakowsky. And there are other agencies that are also 
funding certain aspects of this as well, I was told, even 
agriculture or there is other money involved in these programs. 
So, you know, a million here, a million there, it begins to add 
up, and I just feel like--I congratulate the committee and the 
GAO. I get this feeling that there are probably a lot of 
programs like this that have been around for a while and nobody 
is really looking at them, and the fact that the mission has 
changed and you want it to change pretty extensively regarding 
countries that are involved, I couldn't agree more with Mr. 
Shimkus, who said I think the Congress needs to--if we are 
going to change this mission, then we better get involved. 
Congress better get involved in deciding whether these 
resources are going to go, and also providing the oversight but 
you wanted to comment, Mr. Scheinman, go ahead.
    Mr. Scheinman. Well, I certainly take all of your points 
and I don't want to take issue with any of them. I would just--
with respect to soft and hard metrics, my point was that only 
soft metrics count. That is clearly not the case. We need to 
have measurable metrics that help guide our priority ranking, 
that help guide implementation, that----
    Ms. Schakowsky. So in regard to the initial objective, are 
there any metrics that would indicate that this program has 
been a success?
    Mr. Scheinman. I think we can measure the success of the 
program through the level of engagement. I don't think we can 
measure success by absence of an activity. I think we do have 
information that these programs have made a difference in very 
real terms in terms of institutes perhaps working with us 
instead of with suspect partners. I would have to provide that 
information in another setting. But we do have the challenge of 
essentially----
    Ms. Schakowsky. But wait. So you agree that there is--or 
maybe it was you, Mr. Stratford, that there is a relationship 
with Iran that is bilateral and has nothing to do with us, and 
isn't that in regard to the institutes?
    Mr. Stratford. There is a relationship with Iran in terms 
of the Bushier reactor and the fuel for it. Remember, what we 
are trying to do is to get institutes to be self-sustaining, so 
our metric is simple: have we graduated institutes; have we 
stopped providing assistance to a particular institute?
    Ms. Schakowsky. Yes, although you said that having said 
that earlier, that just because an institute has graduated 
doesn't mean that there aren't still risks and deserve U.S. 
dollar support.
    Mr. Stratford. That is correct in certain instances. But 
even if we graduated every single institute, I still can't 
guarantee that two or three scientists from Institute X 
wouldn't decide that Iran was looking very promising as a place 
of employment. That can still happen. Now, if we thought that 
was going to happen, I suspect we would try to do something 
about it, and I don't know whether that would be another 
project at that institute or whether we would find some other 
way to address the problem. The problem doesn't go away. The 
question for us is, can we make most of it go away by reducing 
temptation and can we reduce temptation by having an institute 
be self-sustaining. We talk about Russia being richer. Yes, 
they are, but that doesn't mean that the government hasn't 
still cut loose some of its institutes and left them in a 
precarious position financially. The one other thing I would 
like to say is, what strikes me is that there are other 
countries who think that the science center idea is a good idea 
and are putting in money. Staff tells me that the annual budget 
of the Moscow Science Center is about $100 million. All U.S. 
contributions together are about $50 million of that. That 
means we are getting a one-to-one matching grant just like 
National Public Radio from other countries who have been 
putting in the money to do what we do. So is our $50 million 
leveraged? Yes, leveraged 100 percent because other people 
think this program is worthwhile. I will stop there.
    Ms. Schakowsky. Thank you.
    Mr. Stupak. Well, that is at one institute. Let me follow 
up Ms. Schakowsky's question this way. Are the institutes being 
funded by DOE or State Department that are also working with 
Iran?
    Mr. Stratford. I don't know the answer to that question. 
The science center in Moscow funds through projects a lot of 
institutes. The question you are asking is, are any of those 
who are getting U.S. dollars participating in the Iran nuclear 
program?
    Mr. Stupak. Right.
    Mr. Stratford. I don't know the answer to that.
    Mr. Stupak. Wouldn't we want to know that? How do you know 
that the purpose and intent is what we except it to be than if 
we don't know where they are working outside of cooperative 
agreement with the United States?
    Mr. Stratford. Well, we do know basically what goes on 
between Russia and Iran, and I would have to check whether any 
of the institutes that receive project funding from us are 
connected with Bushier or fuel supply.
    Mr. Stupak. Would you do that?
    Mr. Stratford. That is a possibility but I don't know the 
answer to it but I would be happy to try to provide that for 
the record.
    Mr. Stupak. How about you, Mr. Scheinman? Are there any DOE 
institutes working with----
    Mr. Scheinman. I am not aware of work that we are 
conducting that supports the Bushier fuel supply. We also, with 
the State Department and the entire U.S. interagency, obviously 
are looking very closely at potential relationships between 
Russia and Iran and we would gauge our decisions on projects 
based on what we know, but I would have to go back and see 
whether our work involves any of the institutes involved in the 
fuel transfer, the reactor.
    Mr. Stupak. OK. Well, we would like to have those answers 
because I was going to ask this question but based on these 
answers, you know, DOE funded a Lawrence Livermore study of 605 
Russian scientists to address the brain drain. Now, that was 
back in 2002, but 21 percent of those scientists said they 
would go to rogue states such as North Korea, Iran, Syria or 
Iraq if the project involved significant scientific interest 
and the compensation was adequate. Well, if we are funding 
institutes and we don't know if Russia then has a separate 
agreement from those institutes we are putting money into with 
countries like Iran, Korea or Syria, that would be a cause of 
concern. And even though if you said well, we will give you 
money, you can come work elsewhere, the Russian scientists, 15 
percent of them said they are still willing to go to rogue 
states for compensation or for the scientific challenge. In 
fact, 70 percent said their preferred place is Germany, of all 
places.
    Let me ask you this question, Mr. Scheinman. Isn't it the 
case that DOE's Initiative for Proliferation Prevention is 
funding six projects under the Global Nuclear Energy 
Partnership, or GNEP, a DOE program to repossess, and I 
mentioned earlier, spent nuclear fuel and develop fast 
reactors?
    Mr. Scheinman. Yes, we do have a number of projects that 
are supportive of the general purposes associated with GNEP.
    Mr. Stupak. All right. Did DOE suspend part of its guidance 
that requires an industry partner to participate--you are 
talking about a one-to-one match, Mr. Stratford was, but 
industry partnership participation which is intended to ensure 
the commercial application of the projects, correct?
    Mr. Scheinman. The requirement in our guidance for industry 
partnership is associated with commercial projects. All of our 
projects are----
    Mr. Stupak. So GNEP, there has to be a private industry to 
show some potential for commercial application.
    Mr. Scheinman. I think the level of technology at this 
stage is only of interest to scientists and engineers. It is 
not at the point of being of interest to the commercial market.
    Mr. Stupak. Right. So why are you funding it then? If it is 
supposed to be with a commercial partner, why are you funding 
six of them when it is not commerciable and you can't have a--
and there isn't a private partner who will even go along with 
you and it is also the conclusion of the National Academy of 
Sciences, they issued a recent report saying you are funding 
these six programs that have no commercial application, long 
time coming, why are you funding these programs when it won't 
be commercialized any time soon.
    Mr. Scheinman. I believe one project does in fact have a 
commercial partner but the reason that we are pursuing this 
work is associated with my earlier comment about focusing our 
program on nonproliferation topics that are of interest to the 
United States and hopefully of interest to Russia and that 
includes the development of a proliferation-resistant fuel 
cycle which will move us away from the current practice which 
Russia now practices which is to separate plutonium from spent 
fuel in pure form directly usable in weapons, encourage them 
over time to transition to a system that doesn't separate that 
plutonium in a pure form.
    Mr. Stupak. Well, is it the Secretary's responsibility, in 
this case Secretary Bodman, to determine whether or not 
projects carried out under IPP are likely to achieve their 
commercial objectives?
    Mr. Scheinman. Yes, per the law, I believe, the commercial 
potential is----
    Mr. Stupak. There is the point. The law says they are 
supposed to have commercial potential. You say one out of six 
might, so why are we funding the other five contrary to the 
law?
    Mr. Scheinman. At least my understanding is that projects 
that are approved for the purpose of being commercialized 
require an industry partner. Not all of our projects are 
approved for the purpose of commercialization. They are 
approved for the purpose of pursuing basic or perhaps applied 
research that we don't plan to pursue as a commercialization--
--
    Mr. Stupak. So then why are we doing it under the IPP 
program then? Why don't we just do it underneath our national 
labs? Why are you using this program for something that the law 
says it can't be done for? Why would you go there with it?
    Mr. Scheinman. Well, I don't----
    Mr. Stupak. Is it just in the interests of the Secretary 
or----
    Mr. Scheinman. No, sir, this is--our position is that the 
Global Nuclear Energy Partnership is one that we should 
support. It is the Administration's policy, and we have made 
those decisions internal to our own management certainly with 
briefings to senior management.
    Mr. Stupak. Yes, right, but isn't it supposed to--the 
programs you want to run are supposed to be under Congress 
authorization, isn't it, not what you think might be a good 
idea? The GNEP program, unless it has commercial application, 
hasn't been approved by Congress.
    Mr. Scheinman. Well, I think you can look at GNEP in 
perhaps in two ways. One is----
    Mr. Stupak. Yes, I look at it underneath the law and not 
where you want to go with.
    In fact, Mr. Robinson, isn't that one of the weaknesses you 
pointed out in your report?
    Mr. Robinson. Yes, our main issue with this is that it 
feels a little bit like mission creep, you know, and we have 
recommended that the relationship between GNEP and IPP be 
clarified and I think DOE is embarking upon undoing that, but 
it is the mission creep. What is the--we move the program into 
infinity and that is what is our issue is. We think, you know, 
this ought to be clarified.
    Mr. Stupak. Do you want to comment on that at all?
    Mr. Levis. No, only to the extent what Bob Robinson says. 
We agree. We raised these questions about what authorization do 
you have to move the program in this direction, what guidance 
do you have, are there industry partners. These are the 
questions that you are raising today. We had the same 
questions.
    Mr. Stupak. And as I said in my opening, I am not 
necessarily--I think this program is a valuable program but I 
think it has to be within the confines of what Congress has 
authorized and how we spend money and how the programs are 
being run. I mean, maybe we shouldn't have an IPP program 
anymore. Maybe it should be a different program for nuclear 
research or reestablishing the nuclear base and technology and 
teaching in this country with the goal of nonproliferation. 
Maybe that is a more sensible way to go, at least underneath 
the authorization of Congress when we are spending $40 to $50 
million a year.
    Let me ask you one more question if I can, Mr. Scheinman. 
Turn to tab 13 in the binder, please. This is a December 15, 
2006, joint letter from Secretary Bodman and Director 
Carichenko directed to President Bush and President Bush and it 
is attached to a U.S.-Russian plan of action for implementing 
GNEP, the global nuclear program there. Is this agreement non-
public or is it a public document?
    Mr. Scheinman. This is currently a non-public document. My 
understanding is that the office that directed it within the 
Department of Energy has committed to the Russians that we 
would seek their agreement before releasing it.
    Mr. Stupak. Right. So before we can release this document, 
we need the Russians to agree with us, right?
    Mr. Scheinman. That is my understanding from the sponsoring 
office.
    Mr. Stupak. Since this is a government-to-government 
agreement between the United States and Russia, why is it that 
Russia determines whether the U.S. government's action plan to 
develop GNEP should be kept a secret from the American people? 
It is government to government. Wouldn't the government make 
its own decision?
    Mr. Scheinman. I don't think I would term this a 
government-to-government agreement in the classical sense.
    Mr. Stupak. Well, it is President Bush to President Putin.
    Mr. Scheinman. Yes, it is a joint report of ministers to 
two presidents. I believe the report could be treated as 
confidential foreign government information which I think by 
its own rules and requirements would provide that Russia would 
have to agree to its release. As I say, I am happy to take this 
back to the sponsoring office and----
    Mr. Stupak. Sure. I mean, the assistant secretary for 
nuclear energy or U.S. Department of Energy signed it and his 
Russian counterpart did, but transparency is a cornerstone to 
the U.S. nuclear program policy with respect to civilian use of 
nuclear energy so I don't know how keeping it secret would 
build the public trust in DOE's plans for GNEP, so we are not 
going to make it public right now but I want to make it very 
clear that we come back and give us an answer to contact the 
Russian signatories so we can have public release of this 
document. We think it is critically important, especially with 
the GNEP program and the questions I have been asking you.
    One more question. A couple years ago, I am still waiting 
for an answer, Secretary Bodman on spent fuels--you know, this 
country doesn't do it. We are probably about the only one that 
doesn't do it. We have problems at Yucca Mountain with storage 
and all this other. I asked him to revisit that policy. Has he 
ever made any recommendations to President Bush to revisit, 
overturn that policy? That policy has been in place since the 
Carter years. Technology has progressed so much. I think it is 
one of those things we ought to look at. Would you please take 
that message back and see if we can get some answers?
    Mr. Scheinman. I can tell you that it is being looked it 
very actively.
    Mr. Stupak. Good. I just hate to have all those years of 
advocacy go down the drain.
    I guess that concludes it. I thank all of our witnesses for 
coming today. Sorry I was out for a bit. I was doing some work 
on the Great Lakes so I had to go testify. I am glad to be 
back. Thank you all. Good testimony, interesting issue. We will 
back with further hearings on this subject. Mr. Scheinman, Mr. 
Stratford, Mr. Robinson, Mr. Levis, thank you very much for 
your time.
    That concludes our questioning. I want to thank all of our 
witnesses for coming today and your testimony. I ask for 
unanimous consent that the hearing record will remain open for 
30 days for additional questions for the record. Without 
objection, the record will remain open. I ask unanimous consent 
that contents of our document binder with the exception of tab 
13, the one I just questioned on, with the exception of tab 13, 
all of the rest of them will be entered into the record. 
Subcommittee staff will work with the Department of Energy to 
find an acceptable copy of tab 13 to enter into the record. 
Without objection, the documents will be placed in the record.
    [The information appears at the conclusion of the hearing:]
    Mr. Stupak. That concludes our hearing, and without 
objection, this meeting of the subcommittee is adjourned.
    [Whereupon, at 11:35 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                   GIPP Status Report, March 25, 2008

                          Interim Steps Taken

    Placed on hold projects underway at institutes having 
involvement in Iran's nuclear programs; final decisions to be 
taken following completion of Energy/State Terms of Reference.
    Cancelled 2 projects at one institute of concern.
    Placed on hold two projects that involve Russia and 
proliferation-resistance of the fuel cycle.
    Met with U.S. interagency to discuss path forward for GIPP 
and State redirection programs.
    Outcome: State/Energy to update Terms of Reference for 
project reviews to ensure consistent application by IPP and 
ISTC. Aim is for interagency consensus on TOR within a month.
    Briefed HECC staff on results of classified assessments in 
response to Committee questions.

   Proposed Path Forward (Subject to Consultations with Stakeholders)

    Continue R/FSU projects that involve high-risk institutes.
    Complete next phase of institute risk assessment to inform 
future programmatic decisions.
    Gain Russian agreement over next several months on 
approach to cost-sharing.
    Wind-down projects by end of FY 2010 that include no 
institutes rated as "high risk."
    Keep option of continuing projects at lower-risk 
institutes when needed to gain participation by high-risk 
institutes
    Determine role of industry under a cost-sharing model.
    Continue programs in Iraq and Libya (do not expect to 
carry forward with Libya beyond 2011).
    Maintain readiness to support projects in North Korea.
    Pursue nonproliferation technology projects outside of 
IPP; shift 2 existing advanced safeguards projects from GIPP to 
NA-242's International Safeguards and Engagement Program.
    Attain intra-Departmental and interagency agreement on 
approach to advanced fuel cycle projects; cost-sharing could be 
a condition of IPP support for approved projects in this area.
    Shift cost savings to Safeguards/North Korea 
denuclearization tasks.

              Interim Findings Regarding Russia and Iran:

    The HECC raised concerns over IPP work at certain 
institutes. We have looked closely at these projects and have 
reached the following conclusions:
    No payments were made to individuals at institutes under 
sanctions by the US Government.
    No evidence of U.S. funds or technology supporting Iranian 
nuclear projects.
    IPP has funded projects at institutes that have conducted 
work in Iran, though in some cases the reporting was acquired 
after the IPP projects were complete.
                          Exhibit Binder Index


   Initiatives for Proliferation Prevention Organizational Materials

    1. Initiatives for Proliferation Prevention (IPP) 
Organizational Chart
    2. IPP Mission and Program Description
    3. IPP General Program Guidance, March 2002
    4. List of 35 Projects Funded by DOE at the Same Institutes 
Which Had Been "Graduated" by the State Dept. Program in the 
Current or Previous Fiscal Years
    5. List of Current IPP Projects
    6. Global Initiatives for Proliferation Prevention--Global 
Nuclear Energy Partnership Projects

                       Nonproliferation Statutes

    7. National Defense Authorization Act for FY2000: Public 
Law 106-65, Section 3136--Nonproliferation Initiatives and 
Activities
    8. FY94 Foreign Operations Appropriations Act: Public Law 
103-87, Section 575--Ukraine/Russia Stabilization Partnerships
    9. Atomic Energy Act, Section 123

      Government Accountability Office Reports and Correspondence

    10. "Nuclear Nonproliferation: Concerns with DOE's Efforts 
to Reduce the Risks Posed by Russia's Unemployed Weapons 
Scientist." GAO/RCED-99-54. (Executive Summary and Contents 
only, the full document can be found in the Subcommittee's 
Files.), February 1999
    11. GAO engagement letter to DOE Secretary Bodman, re: 
researching IPP program for December 2007 report, 10/11/2006
    12. "Nuclear Nonproliferation: DOE's Program to Assist 
Weapons Scientists in Russia and Other Countries Needs to be 
Reassessed." GAO-08-189. (GAO Findings and Contents only, the 
full document can be found in the Subcommittee's files.), 
December 2007

                         U.S.-Russia Agreement

    13. Transmittal of the Report of the United States and 
Russian Federation Joint Working Group on the Development of a 
Bilateral Action Plan to Enhance Global and Bilateral Nuclear 
Energy Cooperation, 12/15/06

                             News Articles

    14. Global Security Newswire article by Jon Fox, "GAO 
Lashes U.S. Nonproliferation Program." 01/14/08
    15. Nezavisimaya Gazeta (Russian) unattributed editorial: 
Assistance from the United States Arrived to Wrong Scientists. 
Washington is Ready to Turn its Back on Russian Closed Towns." 
01/17/08

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


      Robert Robinson, Responses to Questions from Hon. Gene Green

    1. Your study finds that 15% of the scientists hired in the 
97 projects reviewed by GAO were born after 1970 and therefore 
unlikely to have participated in Soviet-era WMD programs. Why 
does GAO believe this may actually increase proliferation risk? 
Has any analysis been performed to determine the proliferation 
risk posed by younger scientists?
    As we noted in our December 2007 report, officials at 10 of 
the 22 Russian and Ukrainian institutes we interviewed said 
that IPP program funds have allowed their institutes to 
recruit, hire, and retain younger scientists. DOE guidance for 
the IPP program does not specifically prohibit participation of 
younger scientists in IPP projects, but DOE has not clearly 
stated the proliferation risk posed by younger scientists and 
the extent to which they should be a focus of the IPP program. 
We believe that DOE has a mistaken and naive impression of how 
institutes in the former Soviet Union view the benefits of 
allowing younger scientists to participate in the IPP program. 
DOE's practice of allowing younger scientists to participate in 
the IPP program has the unintended consequence of allowing 
former Soviet Union institutes to use the IPP program as a 
long-term recruitment tool and, thereby, may perpetuate the 
proliferation risks posed by scientists at these institutes. In 
our view, this is a very troubling issue that DOE needs to 
address as part of a fundamental reassessment of the IPP 
program.
    We are not aware of any analysis done by DOE to assess the 
proliferation risks posed by younger scientists.
    2. Does the IPP program operate under any strategic plan 
that understands the threat of WMD knowledge leakage, the final 
goal of these programs and the strategy used to reach these 
goals?
    In recent years, DOE has conducted strategic reviews and 
developed action plans for the IPP program, and has 
commissioned studies to help it better understand the threat of 
WMD expertise proliferation. However, we found that these 
efforts have not produced a more up-to-date and appropriate set 
of long-term goals and metrics for the program. For instance, 
we found that the IPP program's long-term performance targets 
do not accurately reflect the current size and nature of the 
threat the program is intended to address because DOE bases the 
program's performance measures on a 1991 assessment of the size 
of the former Soviet WMD scientific community. Moreover, the 
current program metrics - the total number of weapons 
scientists supported by IPP grants or employed in private 
sector jobs - are broad measures of program progress, but are 
not complete or meaningful indicators of program progress in 
reducing WMD expertise proliferation concerns within specific 
countries and institutes.
    DOE acknowledged these weaknesses in the IPP program 
strategy, metrics, and goals. As a result, we recommended in 
our December 2007 report that the Secretary of Energy, working 
with the Administrator of the National Nuclear Security 
Administration, conduct a reassessment of the IPP program that, 
among other things, includes (1) a thorough analysis of the 
proliferation risk posed by weapons scientists in Russia and 
other countries, (2) a well-defined strategy to more 
effectively target the scientists and institutes of highest 
proliferation concern, and (3) more accurate reporting of 
program accomplishments.
    3. In your testimony, you often mention the Department of 
State's strategy to "graduate" certain institutes from its 
programs and that DOE has not developed its own criteria to 
determine when participants "graduate" from the IPP program. Do 
you feel State's "graduation" strategy is sufficient to 
determine if scientists or institutes no longer require 
assistance, and should DOE use State's "graduation" strategy as 
a model for its own program?
    We did not specifically take a position on the use of 
State's strategy as a model for DOE's development of an exit 
strategy. However, we believe that State's graduation strategy 
for its Science Centers program contains important elements 
that could serve as a baseline for DOE's development of a 
transition or graduation strategy for the IPP program. As we 
stated in our December 2007 report, State used a range of 
factors, such as the institute's ability to pay salaries 
regularly and to attract funding from other sources, when 
making determinations about the self-sustainability of 
institutes. DOE officials told us that they were aware of 
State's approach and had discussed it with State officials.
    4. In your testimony, you state: "DOE officials stated that 
the IPP program metrics are not sufficient to judge the 
program's progress in reducing proliferation risks. However, 
DOE has not updated its metrics or set priorities for the 
program on the basis of a country-by-country and institute-by-
institute evaluation of proliferation risk." After over a 
decade in existence, why do you believe the IPP program has not 
yet established adequate metrics or program priorities?
    The specific reasons why DOE has not yet established 
adequate metrics or program priorities are unclear to us. 
However, in its written comments on our December 2007 report, 
DOE acknowledged "the need to give greater consideration 
to.improving outdated metrics." It should be noted that in its 
Fiscal Year 2009 Congressional Budget Request, which was 
published in February 2008, DOE had still not updated its 
metrics for the IPP program to reflect an updated assessment of 
the size of the at-risk population of WMD scientists in the 
former Soviet Union. DOE's most recent congressional budget 
justification remains based on a 1991 National Academy of 
Sciences estimation of this population.
    5. In your testimony, you state that "the absence of a 
joint plan between DOE's IPP program and the International 
Science and Technology Center's Commercialization Support 
Program raises questions about the lack of coordination between 
these two U.S. government programs that share similar goals of 
finding peaceful commercial opportunities for foreign WMD 
scientists." Do these two commercialization programs overlap, 
and should they be consolidated or restructured in any way?
    We did not assess the extent to which these two 
commercialization programs duplicate one another and offered no 
opinion on whether or not they should be consolidated or 
restructured. However, as we noted in our December 2007 report, 
DOE, State, and ISTC officials told us the IPP program and the 
Commercialization Support Program have a similar goal of 
finding commercial opportunities for weapons scientists in 
Russia and other countries of the former Soviet Union. 
According to ISTC officials, a key difference in the programs 
is that the Commercialization Support Program can support 
infrastructure upgrades at foreign institutes, but, unlike the 
IPP program, it is not used to support research and development 
activities. DOE and State officials stated that the programs 
are complementary, but acknowledged that they need to be better 
coordinated.
    At the January 23, 2008 hearing, the Acting Deputy 
Assistant Secretary of State's International Security and 
Nonproliferation Bureau testified that "aspects of 
commercialization are already in place at the ISTC via its 
commercialization program know called Innovation Initiatives 
(formerly the Commercialization Support Program) and at STCU 
through the Targeted Research Initiatives. For both these 
commercialization initiatives, State has worked with and drawn 
from the Department of Energy's own commercialization efforts 
in the Initiatives for Proliferation Prevention program." Both 
DOE and State concurred with our recommendation to more closely 
coordinate these programs.


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Richard Stratford, Responses to Questions from Hon. Bart Stupak

    Question:
    You testified that the Department of State plans to sunset 
funding for Russian institutes as part of its Science Centers 
programs by 2012. Why doesn't the State Department view its 
Science Centers program as a perpetual program? Aren't the 
risks from scientist "brain drain" to rogue nations an ongoing 
problem which would merit continued funding?
    Answer:
    State's Global Threat Reduction programs (GTR) are threat 
driven and worldwide. Thus, if State reaches 2012 and has 
graduated all the priority institutes on our Science Centers 
Program list, but there are still proliferation threats from 
FSU former WMD institutes or WMD experts, State will continue 
to engage scientists in the FSU. It may be the case that in 
2012, the threat in the FSU may not still exist, and State 
would then use these funds to engage scientists at risk 
elsewhere; however, that is years away. For now, State plans to 
focus on engaging institutes that face the most important 
proliferation risks and to also focus on graduating institutes 
to financial self-sustainability.
    Question:
    What is the budget for FY2009 for the Science Centers 
Program?
    Answer: The estimated budget for FY2008 is $12 million 
shared between the International Science and Technology Center 
(ISTC) and the Science and Technology Center in Ukraine (STCU). 
No decision has been made about how to allocate our Global 
Threat Reduction funds for FY2009 among the various program 
elements worldwide. Since CTR's programs are threat driven, we 
have been making 20% reductions to the Science Centers Program 
budget on average per year, and this may help estimating the 
budget for Science Center spending for FY2009.
    Question:
    What criteria does the Department of State use in selecting 
and graduating institutes from the program?
    Answer:
    Institutes are selected to be on the priority list for 
graduation based on an interagency review process. We started 
our graduation process with a list of 200 institutes which we 
believe need to become financially self-sustainable in order to 
decrease proliferation risk associated with financial 
instability. The U.S. considers and balances a variety of 
factors relating to an institute's potential for financial 
self-sustainability. Examples of the types of factors utilized 
by the U.S. in making a determination about where an institute 
should fall in the graduation continuum are:
    Ability to secure grant funding from international, non-
Science Centers sources,
    Possession of equipment/training/international 
certifications required to secure outside funding or, 
alternatively, the ability to meet such requirements through 
short-term, intensive training or equipment provision,
    Staff ability to write competitive grant proposals for 
international funding bodies,
    Ability to publish in international scientific journals,
    Ability to develop a financial plan for long-term 
sustainability,
    Ability to pay staff salaries regularly from host 
Government or outside (non-Science Centers) funding sources,
    Capability of leveraging current or past Science Centers 
funding to increase host Government interest and investment in 
the institute,
    Ability of institute to provide international access and 
conduct business in an open, transparent manner,
    Ability to engage in contract research and/or commercial 
production (Note: For many research institutes in the former 
Soviet Union, the Department of State does not expect 
commercial success to be the most viable self-sustainability 
solution.),
    Understanding of intellectual property concerns/
requirements,
    Designation of staff to handle intellectual property 
issues for the institute as appropriate,
    Number of international patents/capability of filing 
records of invention.
    Additional factors that may be taken into account when 
determining an institute's graduation status:
    Number of former weapons experts still employed at the 
institute,
    Security/location of materials at an institute that could 
be vulnerable to rogue state/terrorist use,
    Proximity of an institute to a region with terrorist 
activity.
    Once an institute has been identified as a candidate for 
graduation, more targeted assistance can then be provided to 
help the institute to meet one or more final objectives to 
enhance self-sustainability and eliminate the need for U.S. 
regular project funding. The U.S. believes that the Science 
Centers and ISTC/STCU Parties can be instrumental in providing 
this targeted assistance. The U.S. has also found that 
capabilities assessments can be helpful as the first step in 
institute discussions about self-sustainability planning as a 
prelude to graduation.
    Question:
    If an institute becomes financially self-sufficient, but 
continues to represent a proliferation concern, will the 
Department of State "graduate" this institute under its 
criteria?
    Answer:
    State continues to engage institutes that face the most 
important proliferation risks, regardless of their graduation 
status because residual risk may exist despite financial self-
sustainability.
    Question:
    Why should the U.S. continue to fund two "brain drain" 
programs (Departments of State and Energy) with similar goals 
and objectives to support weapons of mass destruction 
scientists who were employed by the former Soviet Union?
    Answer:
    The Science Centers Program and Initiatives for 
Proliferation Prevention Program (IPP) are complementary. Under 
the Science Centers Program, State acts as the U.S. 
representative in the two international centers in the FSU. 
State's programs focus on graduation and science projects and 
are part of our fast-paced and extensive worldwide effort to 
engage WMD scientists. State also funds initiatives at the 
Centers such as Counterterrorism workshops, business training, 
science advisory council meetings, communication support, etc., 
to redirect scientists to peaceful, sustainable civilian 
employment. From our perspective, IPP offers unique 
commercialization opportunities with U.S. private industry and 
national laboratory partners. When the programs were created, 
agencies viewed the Science Centers Program and DOE's IPP 
Program as complementary and supplemental.
    Question:
    In terms of the Department of State's involvement in 
scientist assistance programs in Iraq and Libya, what are the 
key differences between the approaches used by the Department 
of State and the Department of Energy (DOE)?
    Answer:
    State's Iraq Redirection Program and the Libya Scientist 
Engagement Program are aimed at redirecting former WMD 
personnel and those with WMD-related expertise in these 
countries to peaceful, civilian activities. The Department of 
State has the lead for diplomatic and policy guidance on 
engaging WMD specialists in Iraq and Libya.
    In State's redirection program in Iraq, we run our own 
science organization in the Red Zone, parts of Baghdad outside 
the International Zone perimeter, and also work to facilitate 
employment matchmaking, carry out business development and 
project management training, and support conferences and 
technical programs. DOE does not have its own science 
organization to carry out its work in Iraq. Rather, it partners 
with an independent regional organization that has a Baghdad 
branch office to provide technical scientific training and 
research opportunities to Iraqis.
    State efforts are coordinated with IPP through regular 
meetings and correspondence, participation in weekly Iraq 
Redirection Program-wide telecons, having IPP representation at 
CTR-sponsored proposal review meetings, and through 
coordination on strategic planning and upcoming events to 
ensure effective and united USG policy formulation and 
implementation.
    In Libya, following its historic decision to dismantle its 
WMD programs, Western assistance was requested in engaging 
Libyan WMD scientists. The Libya Scientist Engagement Program 
responds to this request by redirecting former WMD scientists 
toward civilian careers that can enhance Libya's economic 
development. The UK and DOE are partners in these efforts.
    State works very closely with DOE which focuses primarily 
on nuclear scientists in Libya, and we engage the entire 
population of nuclear, biological, chemical, and delivery 
systems experts. Efforts in Libya are highly integrated and we 
rely on DOE's technical expertise while we address the broader 
threat.
    Question:
    What is the Department of State's view about the Government 
Accountability Office's (GAO) finding that the Department of 
Energy is currently funding 35 projects at 17 Russian and 
Ukrainian institutes that the Department of State considers to 
have "graduated" from its program? Does this make sense from a 
proliferation perspective? Does the Department of State expect 
that DOE will continue to fund institutes that have graduated? 
What is the logic of this policy?
    Answer:
    State continues to fund graduated institutes that face the 
most important proliferation risks. Even after an institute has 
graduated, there may still be residual proliferation risk which 
we have to address through continued engagement.
    Question:
    Please itemize in former Soviet Union countries that are 
funded in whole or in part by the Department of State in 2008, 
the amounts per institute, and the project funded.
    Answer:
    State makes project funding decisions at the Governing 
Board meetings. At the ISTC, State funds science projects 
during three rounds of funding per year and at the STCU, twice 
per year. For FY2008, State has only funded projects at the 
ISTC and the STCU during one round each.
    At the STCU Governing Board meeting in November 2007, State 
funded STCU Regular Project #3984 for $199,687. The main 
institute is Frantsevich Institute for Problems of Materials 
Science of National Academy of Science of Ukraine. The 
participating institutes include Yuzhnoye State Design Office 
of NSAU and the Georgian Technical University of Ministry of 
Education and Science of Georgia. State also funded two 
Targeted Research Initiative (TRI) projects in Azerbaijan. This 
initiative is aimed to increase host state funding at the STCU. 
The cost of funding the project is split 50/50, between the 
funding parties and the host state respectively. One Azeri TRI 
was STCU TRI Project #4520 for the amount of $24,966 with the 
Azeri Institute of Physics. The second Azeri TRI was STCU TRI 
Project #4523 for the amount of $24,866 with the Institute of 
Zoology, Institute of Radiation Problems, and the Institute of 
Chemical Problems.
    At the ISTC Governing Board meeting in December 2007, State 
funded ISTC Regular Project #3515 in the amount of $90,000 at 
the Federal State Unitary Enterprise "Russian Federal Nuclear 
Center - All-Russian Research Institute of Technical Physics 
named after Academician E.I. Zababakhin (VNIITF). State also 
co-funded ISTC Regular Project #3799 in the amount of $114,000 
(half the cost) at the Khlopin Radium Institute, St Petersburg, 
Russia with the supporting institute NPO Mayak, Oziorsk, 
Chelyabinsk region, Russia.
    These represent a small portion of what State intends to 
fund over the course of the fiscal year.
    Question:
    Please describe the nuclear safeguards agreements and 
verification procedures in place with Russia to protect and 
prevent the re-export of information related to projects funded 
under the Global Nuclear Energy Partnership by DOE.
    Answer:
    GIPP/GNEP projects potentially involving export controlled 
information or technology were structured to ensure that 
technology flows from Russia to the United States.
    Question:
    Does the United States have a "123" Agreement for 
Cooperation with Russia at this time? Has one been negotiated 
and initialed?
    Answer:
    Negotiations with Russia on the text of an Agreement for 
Peaceful Nuclear Cooperation ("123 Agreement") were essentially 
completed in April 2007 and the text was initialed in Moscow on 
June 29, 2007. In their July 3, 2007 Declaration on Nuclear 
Energy and Nonproliferation Joint Actions, President Bush and 
President Putin noted the initialing of the text with 
satisfaction and highlighted their shared view that the 
Agreement, once signed and brought into force, will provide "an 
essential basis" for cooperation between the United States and 
Russia in the field of peaceful uses of nuclear energy.
    The remaining statutorily-mandated steps toward securing 
the President's approval of the proposed Agreement and his 
authorization to sign it are pending within the Executive 
Branch. The Administration has not yet moved the proposed 
Agreement forward for the President's approval.
    Question:
    What policy differences are there with Russia which has 
caused the Department of State to refrain from submitting it to 
the Congress for review? Does this include concerns about the 
Bushehr reactor in Iran?
    Answer:
    The Administration does not regard Russia's support for the 
Bushehr project in Iran as in itself a reason to withhold 
signature of the Agreement and its transmittal to Congress. The 
President has made clear his support for Russia's supply of 
nuclear fuel to Bushehr because it demonstrates that Iran does 
not need to possess the complete nuclear fuel cycle - with its 
latent proliferation risks - to take advantage of the peaceful 
uses of nuclear energy.
    For the United States, having an agreement for Peaceful 
Nuclear Cooperation in place with Russia would provide a 
framework for potential commercial sales of civil nuclear 
commodities to Russia by U.S. industry. It would also 
facilitate U.S.-Russia cooperation in developing Global Nuclear 
Energy Partnership (GNEP) technologies, in particular the 
development of advanced fast burner reactors, the fuel for 
which would likely be developed in the United States and then 
be transferred to Russia pursuant to the 123 Agreement for test 
irradiation.
    Question:
    How does the State Department perceive the risk posed by 
certain institutes and WMD scientists? How does this view 
differ from that of DOE's?
    Answer:
    Global Threat Reduction (GTR) programs in the Office of 
Cooperative Threat Reduction are threat driven. State consults 
with the entire interagency on the risk posed by WMD expertise 
globally and then target our programs to mitigate these 
threats. CTR continues its redirecting efforts through the 
Science Centers Program because State assesses there is still a 
risk in the former Soviet Union of WMD expertise transfer to 
proliferant states or terrorists.
    State defers to DOE to explain its view on how it perceives 
the risk posed by certain institutes and WMD scientists.
    Question:
    Is there benefit for State and DOE to collectively 
establish a system for evaluating proliferation risk for 
institutes and scientists to better target involvement in the 
IPP and ISTC program?
    Answer:
    Yes. As State stated during the Congressional hearing on 
January 23, we agree that we should work more closely to 
evaluate proliferation risks and will work with DOE to that 
end.
    Question:
    Some believe that due to Russia's increased financial 
prosperity, and to verbal commitments made by top government 
officials to help fund WMD scientists, that the U.S. should no 
longer fund the IPP program. Despite the rhetoric, has Russia 
made any tangible commitments to funding its own programs? If 
the U.S. withdrew funding, would Russia fund their own Soviet-
era WMD scientists?
    Answer:
    State has been engaged in a dialogue with Russia to 
increase host state contributions to the International Science 
and Technology Center (ISTC). The U.S. and Russia have agreed 
that it is in both of our interests to help institutes reach 
self-sustainability. Russia is also increasing its own spending 
in areas that employ former weapons scientists. For example, 
Russian spending on public health spending has increased 
greatly and this trend has greatly contributed to many Russian 
biological institutes becoming financially self sustaining.
    Question:
    Can you further elaborate on State's "exit strategy"? Is it 
simply to "graduate" institutes to financial self-
sustainability?
    Answer:
    Self-sustainability programming is designed to decrease the 
resources necessary to engage WMD expertise in the former 
Soviet Union by graduating institutes so that we can redirect 
funds to emerging global threats.
    However, State continues to engage institutes worldwide 
that face the most important proliferation risks, regardless of 
their graduation status because residual risk may exist despite 
financial self-sustainability. Thus, our exit strategy is to 
make institutes financially self-sustainable by 2012, but if in 
2012 we perceive residual risks, we will still continue some 
level of engagement.

                                 <all>

</pre></body></html>
